APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_______
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ZAVIAN MUNIZE JORDAN,
Defendant-Appellant.
_______
No. 17-4751
_______
Appeal from the United States District Court for the
Western District of North Carolina at Charlotte.
Robert J. Conrad, Jr., District Judge.
(3:16-cr-00145-RJC-2)
_______
Argued: October 29, 2019
Decided: March 3, 2020
_______
Before HARRIS, RICHARDSON, and
QUATTLEBAUM, Circuit Judges.
_______
Affirmed by published opinion. Judge Harris wrote
the opinion, in which Judge Richardson and Judge
Quattlebaum joined.
_______

2a
ARGUED: Leigh Schrope, LAW FIRM OF SHEIN &
BRANDENBURG, Decatur, Georgia, for Appellant.
Anthony Joseph Enright, OFFICE OF THE UNITED
STATES ATTORNEY, Charlotte, North Carolina, for
Appellee. ON BRIEF: Marcia G. Shein, LAW FIRM
OF SHEIN & BRANDENBURG, Decatur, Georgia,
for Appellant. R. Andrew Murray, United States
Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Charlotte, North Carolina, for
Appellee.
_______
PAMELA HARRIS, Circuit Judge:
A jury convicted appellant Zavian Munize Jordan
of two violations of 18 U.S.C. § 924(c), for possession
of a firearm in furtherance of a drug-trafficking
crime, and four other drug-trafficking and firearmsrelated offenses. The district court sentenced Jordan
to a total of 420 months in prison, including a fiveyear mandatory consecutive sentence for his first
§ 924(c) conviction and a 25-year mandatory
consecutive sentence for the second.
Jordan challenges both his conviction and his
sentence, raising four principal arguments on appeal:
(1) that under the Fourth Amendment, the district
court erred in failing to suppress evidence gathered
from the traffic stop that led to his arrest and
subsequent incriminating statements; (2) that under
the Sixth Amendment’s Confrontation Clause, the
district court erred in admitting evidence relating to
a recorded phone call between Jordan and an
informant who did not testify at trial; (3) that the
district court erred in failing to merge his two
§ 924(c) firearms convictions for sentencing purposes;

3a
and (4) that § 403 of the First Step Act of 2018, Pub.
L. No. 115-391, 132 Stat. 5194, 5221–22 which was
enacted while this appeal was pending, should apply
to his case, where it would have the effect of
substantially lowering the mandatory minimum
sentence for his second § 924(c) conviction.1
Finding no error in the district court’s rulings and
holding that § 403 of the First Step Act does not
apply retroactively to cases pending on direct appeal
when it was enacted, we affirm both Jordan’s
conviction and his sentence.
I.
A.
Zavian Munize Jordan was the subject of a weekslong investigation by the federal Drug Enforcement
Administration (“DEA”). Jordan came to the
attention of federal agents when another individual,
Ricky Grant, was arrested for drug distribution and
identified Jordan as his primary and long-standing
source of heroin. Agency Task Force Officer Clint
Bridges then instructed Grant to phone his heroin
supplier, while officers monitored and recorded the
1

Jordan also raises an ineffective assistance of counsel claim,
contending that his trial counsel performed deficiently by
failing to challenge certain search warrants. “[I]t is well settled
that a claim of ineffective assistance should be raised in a 28
U.S.C. § 2255 motion in the district court rather than on direct
appeal, unless the record conclusively shows ineffective
assistance.” United States v. King, 119 F.3d 290, 295 (4th Cir.
1997) (internal quotation marks omitted). Because there is no
conclusive evidence of ineffective assistance on the face of this
record, Jordan’s claim should be raised, if at all, in a § 2255
motion. See United States v. Faulls, 821 F.3d 502, 508 (4th Cir.
2016).

4a
call. Though Grant and Jordan did not refer to drugs
by name during their conversation, the officers
understood them to be using a kind of code
describing a drug transaction. See S.J.A. 002 (Grant
informing Jordan that he is “looking slim” and
asking when they would “get back right”; Grant
suggesting he might “holler” at someone else and
Jordan telling him to “hold up” before he did that);
see also J.A. 161–62 (officer testimony at trial
describing the way in which drug traffickers
routinely use code words when speaking on the
phone). Based on Grant’s statement and the contents
of the call, the officers obtained a warrant to track
the location of Jordan’s phone, and later, a second
warrant to place a location-tracking device on
Jordan’s truck.
The investigation came to a head on May 11, 2016,
when federal agents who had Jordan under
surveillance watched him enter and depart several
locations over a short period of time, sometimes
entering with one package and leaving with another.
At that point, DEA Special Agent James Billings
decided to conduct an investigatory stop of Jordan.
He reached out to Detective Christopher Newman of
the Charlotte-Mecklenburg Police Department, who
had been assisting the DEA in its operation, and
asked him to conduct a routine traffic stop. As Agent
Billings explained to the district court, the DEA
frequently asks local officers to find cause to pull
over drug suspects for traffic violations: A suspect
who believes he is the subject of a routine traffic stop
is less likely to resist and create a danger to the
public; and if the stop does not uncover evidence of

5a
criminal activity, the investigation can continue
without the suspect having been alerted to it.
Detective Newman followed Jordan until he saw
him turn through a red light without stopping, and
then pulled him over. When he approached Jordan’s
truck, Newman found Jordan on the phone and
unwilling to engage with him, and saw several other
cellphones in the vehicle. Newman asked Jordan to
step out of the truck and patted him down, observing
a rubber glove – which he knew to be common
packaging for drugs – in Jordan’s pants pocket. By
then, Jordan’s brother had arrived on the scene in a
separate vehicle, attempting to “interject himself”
into the stop. J.A. 132. Newman accordingly waited
for about 11 minutes for back-up before walking his
drug-detecting dog around the truck. The dog
alerted, and Jordan admitted that he had cocaine in
his possession.
Detective Newman then found approximately 12
grams of cocaine in the rubber glove from Jordan’s
pocket, along with roughly $2,000 in cash, also in
Jordan’s pocket. After a search of the truck revealed
six phones, $26,000 in cash, and a handgun, Jordan
was arrested.
Jordan was advised of his rights and agreed to talk
to the police, admitting that he was involved in
cocaine trafficking and giving a detailed statement.
After obtaining warrants, police officers conducted
several searches. At the home of Jordan’s deceased
grandmother, which Jordan had identified as the
place he used to prepare and package drugs, they
recovered 275 grams of heroin, digital scales and
drug-packaging materials, and a gun and
ammunition. At one of the residences Jordan had

6a
visited on the day he was stopped, at which Jordan
admitted he regularly sold drugs, the police
recovered about 750 grams of cocaine, marijuana,
and another firearm. And at the residence Jordan
shared with his girlfriend, the police found $24,000
in cash and more firearms.
B.
Jordan was indicted on six counts of drug- and
firearm-related offenses. Count One charged Jordan
and others with conspiring to distribute heroin and
cocaine. Counts Five and Six – the next counts
involving Jordan – charged him with substantive
drug offenses: possession with intent to distribute
heroin and cocaine, and distribution of cocaine.
Counts Eight and Nine each charged Jordan with
possessing a firearm during and in relation to a
drug-trafficking crime in violation of 18 U.S.C.
§ 924(c)(1)(A); Count Eight referred to the drugtrafficking conspiracy set out in Count One, and
Count Nine, to the drug-trafficking offense in Count
Six. Finally, Count Ten charged Jordan with
possessing a firearm as a convicted felon, in violation
of 18 U.S.C. § 922(g)(1).
Before trial, Jordan moved to exclude the evidence
seized from the traffic stop and his subsequent
incriminatory statements, on the ground that
Detective Newman violated the Fourth Amendment
by unduly prolonging his traffic stop without the
requisite reasonable suspicion. The district court
denied the motion. Jordan also moved unsuccessfully
to exclude from trial his recorded phone call with
Ricky Grant, arguing that because Grant would not
be testifying at trial, his statements were
inadmissible hearsay and their introduction would

7a
violate the
Clause.

Sixth

Amendment’s

Confrontation

After a three-day trial, the jury found Jordan guilty
of all charges against him. Before sentencing, Jordan
moved to merge Counts Eight and Nine – the two
§ 924(c) firearm charges – or to vacate one for
sentencing purposes, because “[n]othing in the jury
verdict indicates that it found that [he] possessed
different guns at different times.” J.A. 465 (emphases
added). The district court denied the motion,
explaining that Jordan’s claim was foreclosed by
United States v. Khan, 461 F.3d 477, 494 (4th Cir.
2006), in which this court held that a single use or
possession of a firearm may be the basis for multiple
consecutive § 924(c) sentences.
The district court sentenced Jordan to a total of 420
months, or 35 years, in prison: five years on the
drug-conspiracy count, each of the drug-trafficking
counts, and the felon-in-possession count (Counts
One, Five, Six, and Ten), all to run concurrently; plus
the mandatory five-year consecutive term on the first
§ 924(c) firearm offense (Count Eight) and the
mandatory 25-year consecutive term on the second
§ 924(c) offense (Count Nine).
Jordan filed this timely appeal. While his appeal
was pending and after briefs were filed, on December
21, 2018, Congress enacted the First Step Act. Pub.
L. No. 115-391, 132 Stat. 5194. Section 403 of the
First Step Act amended 18 U.S.C. § 924(c)(1)(C) in a
way that is relevant to Jordan’s sentence: Under the
new § 403, if an individual is convicted of two
§ 924(c) offenses in the same proceeding, as Jordan
was here, the mandatory minimum sentence for the
second offense drops from 300 months to 60 months.

8a
§ 403(a), 132 Stat. at 5221–22. Section 403 expressly
addresses its “applicability to pending cases,”
providing that the new penalties apply to offenses
committed before its enactment “if a sentence for the
offense has not been imposed” as of the date of
enactment. § 403(b), 132 Stat. at 5222. In a letter to
this court, Jordan argued that under the First Step
Act, he no longer was eligible for the mandatory 300month sentence he is serving on his second § 924(c)
conviction. The government disagreed, and both
parties filed supplemental briefs on the issue.
II.
Jordan raises four arguments on appeal, two
concerning his conviction and two concerning his
sentence. We take those arguments in turn,
providing additional factual context as necessary.
A.
Jordan first challenges his conviction on the ground
that the district court erred in denying his motion to
suppress evidence seized from the traffic stop and
the incriminatory statements that followed. Jordan
does not dispute the validity of Detective Newman’s
initial stop of his truck for a traffic violation,
regardless of the officer’s actual motives. See United
States v. Palmer, 820 F.3d 640, 649 (4th Cir. 2016)
(“In assessing the legitimacy of a traffic stop, we do
not attempt to discern an officer’s subjective intent
for stopping the vehicle.”). But, Jordan argues,
Newman violated the Fourth Amendment when he
prolonged that stop for 11 minutes, beyond the time
required to complete a traffic stop, without
reasonable suspicion of some other offense.

9a
In an oral ruling, the district court rejected that
claim. At the time Newman initiated his traffic stop
of Jordan, the court concluded, there already was
“overwhelming” indicia of reasonable suspicion that
Jordan was engaged in drug trafficking: the
cooperating witness, Ricky Grant; the preliminary
cell phone and GPS tracking devices, based on a
magistrate’s probable cause determination; and the
suspicious activity – the quick stops at various
locations, entering and leaving with different
packages – on the day of the stop. By itself, the
district court held, that was sufficient to justify the
length of the detention at issue: Given the safety
concerns generated by “this drug trafficking
investigation in which guns and large sums of drugs
and money had recently been seized from a coconspirator,” Newman was justified in waiting for
back-up before proceeding, and “that length of time
was a reasonable period” for the stop. J.A. 778. The
activity observed during the stop, the court finished
– multiple cell phones, the rubber glove that
Newman believed to be contraband – “only
furthered” the reasonable suspicion with which
Newman started. Id. at 779.
We agree with the district court. In considering the
denial of Jordan’s suppression motion, we review the
district court’s factual findings for clear error, taking
the evidence in the light most favorable to the
government, and its legal conclusions de novo.
United States v. McBride, 676 F.3d 385, 391 (4th Cir.
2012). Like the district court, we think that
Detective Newman came to his encounter with
Jordan with ample reasonable suspicion of drug

10a
distribution, justifying the full length of the stop
under the Fourth Amendment.
It is true, as Jordan emphasizes, that when a stop
is based solely on probable cause of a traffic
violation, it may not be prolonged beyond the time
reasonably required to “complete the mission” of a
traffic stop – inspecting license and registration,
issuing a ticket, and so forth. United States v.
Bowman, 884 F.3d 200, 209–10 (4th Cir. 2018)
(alteration omitted) (quoting Illinois v. Caballes, 543
U.S. 405, 407 (2005)); see also Rodriguez v. United
States, 575 U.S. 348, 354 (2015). After that time, the
stop will become unlawful, unless during the stop the
officers obtain consent or develop reasonable
suspicion of some ongoing criminal activity.
Bowman, 884 F.3d at 210.
But this is not that kind of case because, as the
district court recognized, Detective Newman already
had reasonable suspicion of ongoing criminal
activity, apart from Jordan’s traffic violation, when
he stopped Jordan’s truck. Under the constructive or
collective knowledge doctrine, we impute to Detective
Newman knowledge of all the facts known to Agent
Billings when he asked Newman to make a traffic
stop of Jordan. See United States v. Massenburg, 654
F.3d 480, 493 (4th Cir. 2011) (under the collective
knowledge doctrine, we “substitute the knowledge of
the instructing officer or officers for the knowledge of
the acting officer”). And, indeed, Newman in fact was
aware – because he had been told by federal agents –
that Jordan was suspected of drug trafficking, and
that others involved in the same scheme had been
found with firearms or had histories of violent
crimes. He also had constructive knowledge, as the

11a
district court described, of Ricky Grant’s
identification of Jordan as his primary supplier; of
the warrants issued, based on probable cause, for the
tracking of Jordan’s cell phone and truck; and of
Jordan’s movements earlier in the day, which Agent
Billings observed and believed, based on his
knowledge and experience, were indicative of drug
transactions.
We think that is enough for reasonable suspicion,
which is “simply . . . a particularized and objective
basis for suspecting the person stopped of criminal
activity.” Ornelas v. United States, 517 U.S. 690, 696
(1996) (internal quotation marks omitted). Jordan
insists that his earlier behavior on the day in
question, observed by the agents, is as consistent
with running errands and visiting friends as it is
with drug transactions. But Agent Billings, based on
his knowledge and experience, saw it differently, and
in any event, those observations must be considered
together with the totality of the circumstances,
including the credible identification of Jordan as
Grant’s regular drug supplier. Considering the facts
as a whole, and “mindful of the practical experience
of officers who observe on a daily basis what
transpires on the street,” Agent Billings and thus
Detective Newman had a “particularized and
objective basis,” for suspecting Jordan of drug
trafficking when Detective Newman initiated the
stop. See Bowman, 884 F.3d at 213 (internal
quotation marks omitted).
We also agree with the district court that this
initial reasonable suspicion justified the length of the
stop in question, which was extended by roughly 11
minutes when Detective Newman waited for back-up

12a
before completing his investigation. “Investigating
officers may take such steps as are reasonably
necessary to maintain the status quo and protect
their safety during an investigative stop.” United
States v. Taylor, 857 F.2d 210, 213 (4th Cir. 1988).
Detective Newman, who had reason to believe that
Jordan was working with armed drug dealers and
was confronted not only with Jordan but also with
his brother, did not unreasonably prolong Jordan’s
detention by waiting briefly for assistance on the
scene.
The district court also determined, as noted above,
that Detective Newman’s observations during the
stop “furthered” the reasonable suspicion showing,
and the government relies on some of those
observations in its argument for reasonable
suspicion. Because we conclude that Newman had
reasonable suspicion from the outset, however, we
need not consider whether additional information
uncovered during the stop may have contributed to
that showing. Newman had the requisite reasonable
suspicion that Jordan was engaged in illegal drug
activity from the start, and that reasonable suspicion
was sufficient to justify Jordan’s stop under the
Fourth Amendment.
B.
Jordan’s second challenge to his conviction
concerns the admission at trial of parts of the
recorded phone call Ricky Grant made to him at
police direction. The excerpts were introduced at
trial with the testimony of Officer Bridges, who
testified that he “instructed Mr. Grant to place a call
to his supplier,” J.A. 173, and described the way the
call was monitored and recorded. The district court

13a
instructed the jury that it should not consider any of
Grant’s statements on the recording “for the truth of
the matter that he’s stating,” but only to “provid[e]
context” for Jordan’s responses. J.A. 177. Over
Jordan’s objection, the jury then heard excerpts of
the conversation, along with testimony from Bridges
explaining that drug traffickers, when speaking on
the phone, commonly use coded terms to avoid
referring expressly to drugs.
1.
Before trial, Jordan had moved to exclude the
recording. Jordan did not dispute the admissibility of
his own statements on the call, instead arguing that
Grant’s statements were inadmissible: Because
Grant would not be testifying at trial, his statements
constituted hearsay, and their admission would
violate Jordan’s rights under the Sixth Amendment’s
Confrontation Clause. The district court denied
Jordan’s motion, ruling that so long as Grant’s
statements were “offered for the limited purpose of
providing context for the responses of Mr. Jordan,”
they were not inadmissible hearsay and their
introduction would not violate the Confrontation
Clause. J.A. 96.
On appeal, Jordan renews his Confrontation
Clause argument against the admission of Grant’s
side of the recorded call. While we typically review
evidentiary decisions for abuse of discretion, we
review those that implicate the Confrontation Clause
de novo. United States v. Summers, 666 F.3d 192,
197 (4th Cir. 2011). We agree with the district court,
finding no error in admitting the recorded phone call.
The Sixth Amendment’s Confrontation Clause
provides: “In all criminal prosecutions, the accused

14a
shall enjoy the right to . . . be confronted with the
witnesses against him . . . .” This constitutional right
to confrontation bars the admission of “testimonial
statements of a witness who did not appear at trial
unless he was unavailable to testify, and the
defendant had . . . a prior opportunity for crossexamination.” Crawford v. Washington, 541 U.S. 36,
53–54 (2004). The Clause does not, however, “bar the
use of testimonial statements for purposes other
than establishing the truth of the matter asserted.”
Id. at 59 n.9. And so we have made clear – along with
several other circuits – that recorded statements of
non-testifying informants like Grant may be used at
trial consistent with the Confrontation Clause so
long as they are offered only to provide context for
the defendant’s own statements, and not for the
truth of the matter asserted. See United States v.
Wills, 346 F.3d 476, 489–90 (4th Cir. 2003); see also
United States v. Barragan, 871 F.3d 689, 705 (9th
Cir. 2017) (“The informant’s statements were not
admitted for their truth, and the admission of such
context evidence does not offend the Confrontation
Clause.” (internal quotation marks omitted)); United
States v. Occhiuto, 784 F.3d 862, 866 n.2 (1st Cir.
2015) (same); United States v. Tolliver, 454 F.3d 660,
666 (7th Cir. 2006) (same). That is exactly what
happened here. The district court admitted Grant’s
statements only to provide context for Jordan’s own
statements on the call, and clearly instructed the
jury to that effect: “[Y]ou are not to consider the
statements of Grant for any purpose other than
providing context for the responses that you hear
. . . .” J.A. 177. We find no error in the district court’s
ruling on Jordan’s objection.

15a
2.
Jordan now raises an additional Confrontation
Clause argument for the first time on appeal. This
one focuses not on the contents of the call, but on
Officer Bridges’ testimony that Grant phoned Jordan
after he was instructed to “call . . . his supplier.” J.A.
173. Though its precise contours are a bit unclear,
Jordan’s claim appears to be that when Grant placed
a call to Jordan after being told to call his supplier,
he engaged in “assertive conduct” – the equivalent of
saying verbally “Jordan is my supplier” – that falls
within the scope of the Confrontation Clause.
Because Jordan did not object at trial to Officer
Bridges’ testimony about the call, we review his new
argument for plain error only. “To establish plain
error, a defendant has the burden of showing:
(1) that an error was made; (2) that the error was
plain; and (3) that the error affected his substantial
rights,” and even then, we will exercise our
discretion to correct only those errors that would
result in a miscarriage of justice or otherwise
undermine the “fairness, integrity[,] or public
reputation of judicial proceedings.” United States v.
Carthorne, 726 F.3d 503, 510 (4th Cir. 2013)
(internal quotation marks omitted). Here, we need
focus only on the second requirement. Any error in
admitting Officer Bridges’ testimony – a matter we
need not decide – was not so “clear or obvious” that it
amounted to “plain error” for purposes of our review.
United States v. Marcus, 560 U.S. 258, 262 (2010)
(defining “plain error”).
The Confrontation Clause applies only to
“testimonial
statements.”
United
States
v.
Washington, 498 F.3d 225, 229 (4th Cir. 2007). The

16a
jury in Jordan’s case never heard testimony that
Grant said that Jordan was his supplier. But as
Jordan explains, a “statement” also may take the
form of nonverbal conduct intended as an assertion,
often referred to as “assertive conduct.” Id. at 230 &
n.1 (discussing definition of “statement” in Federal
Rule of Evidence 801(a) and applying same analysis
to Confrontation Clause); see, e.g., United States v.
Caro, 569 F.2d 411, 416 n.9 (5th Cir. 1978) (treating
“pointing” at location of drug source as “assertive
conduct” that, “like an oral declaration, is subject to
the hearsay rule”). According to Jordan, when Grant
phoned him in response to a direction to call his
supplier, he engaged in assertive conduct, effectively
identifying Jordan as his source just as though he
had said the words out loud. Because the jury could
infer from Officer Bridges’ testimony a “statement”
by Grant that was not subject to cross-examination
at trial, Jordan finishes, his Confrontation Clause
rights were violated.
This court has not addressed whether and under
what
circumstances
compliance
with
law
enforcement instructions might be deemed “assertive
conduct,” so that testimony about that compliance
would be subject to Confrontation Clause limits. But
the First Circuit has, and on facts virtually identical
to those presented here, it held that when a
confidential informant, at the direction of police
officers, made a phone call to the intended recipient
of intercepted drugs and then drove the officers to a
rendezvous with the recipient, she engaged only in
non-assertive conduct that did not qualify as a
“statement” for evidentiary purposes. See United
States v. Bailey, 270 F.3d 83, 87 (1st Cir. 2001).

17a
Testimony about that compliance, the court
explained,
“described
conduct”
rather
than
introducing statements: The confidential informant
“did not orally identify [the defendant],” and “[t]he
agent did not testify that [the confidential informant]
pointed at [the defendant] or in any way made an out
of court declaration regarding his identity.” Id.
Jordan cites no cases to the contrary, and we have
found none. Jordan relies primarily on the Second
Circuit’s decision in United States v. Gomez, 617 F.3d
88 (2nd Cir. 2010), and though that case, too,
involves a police-directed phone call by a confidential
informant to his supplier, there is an important
distinction. In Gomez, a police officer testified at trial
that he told an informant to call his supplier, and
that he himself – the officer – then selected the
defendant’s phone number from the informant’s
phone and placed the call, before handing the phone
back to the informant. Id. at 91. From that
testimony, the court held, a jury could infer that the
informant must have told the officer, in so many
words, the identity of his supplier, because otherwise
the officer would not have been able to select the
defendant’s number from the informant’s address
book. Id. Gomez, in other words, involved an actual
verbal statement, inferable from the officer’s
testimony. Here, by contrast, Officer Bridges neither
said nor suggested that Grant verbally identified
Jordan as his supplier. The only question, again, is
whether Grant’s act of calling Jordan qualified as a
“statement” in the form of assertive conduct – a
question to which Gomez does not speak, but Bailey
does. Given Bailey’s rejection of Jordan’s position,
and the absence of case law adopting it, the district

18a
court did not commit plain error when it admitted
Bridges’ testimony about the call. See Carthorne, 726
F.3d at 516 (district court does not commit plain
error by following reasoning of another circuit when
we have “yet to speak directly on a legal issue”).
C.
With respect to his sentence, Jordan argues, first,
that the district court erred in sentencing him
separately for his two convictions, under Counts
Eight and Nine, for possession of a firearm in
furtherance of a drug-trafficking crime in violation of
18 U.S.C. § 924(c). According to Jordan, multiple and
consecutive § 924(c) sentences are permissible only
where each is supported by a distinct use of a
firearm. And here, Jordan finishes, the jury’s general
verdict could have rested on a finding that Jordan
used one gun on one occasion, in furtherance of both
the conspiracy to distribute drugs that was the
predicate for Count Eight and the substantive drugdistribution offense identified in Count Nine, making
separate sentences unlawful.
The district court rejected that claim when Jordan
raised it, after his guilty verdict but before
sentencing, in a “Motion to Merge/Vacate Counts 8
and 9.” J.A. 464. The district court acknowledged
that other circuits have adopted the premise of
Jordan’s argument: that one use of a firearm, in the
simultaneous commission of two predicate drugtrafficking offenses, will not support separate
§ 924(c) convictions and sentences. See J.A. 483 n.2.
But the Fourth Circuit, the court continued, has
squarely rejected that position, holding in United
States v. Khan, 461 F.3d at 493–94, that the same
criminal episode indeed may lead to multiple

19a
sentences under § 924(c), so long as they are based
on separate predicate offenses that are not
duplicative under a double jeopardy analysis. Here,
the jury convicted Jordan of § 924(c) offenses based
on separate and non-duplicative predicate offenses –
conspiracy under Count Eight and possession with
intent to distribute under Count Nine – and that was
enough, under circuit case law, to sustain separate
§ 924(c) sentences. Finally, the district court noted
that while Jordan’s argument depended on the
failure of the jury to specify the findings underlying
its convictions on the § 924(c) charges, Jordan had
not requested a jury instruction on the issue or a
special verdict form.
We review this question of law de novo, see United
States v. Fareed, 296 F.3d 243, 245 (4th Cir. 2002),
and again, we agree with the district court. Under
Khan, there is no requirement that multiple and
consecutive § 924(c) sentences rest on the use of
different firearms or distinct uses of the same
firearm. Here, as the district court explained,
Jordan’s two § 924(c) convictions were predicated on
different underlying offenses. And because those two
offenses – conspiracy to possess with intent to
distribute a controlled substance, and possession
with the intent to distribute – are not duplicative for
double jeopardy purposes, see United States v.
Yearwood, 518 F.3d 220, 223 (4th Cir. 2008) (“A
substantive crime and conspiracy to commit that
crime are separate offenses for purposes of the
Double Jeopardy Clause . . . .” (internal quotation
marks omitted)), they may support two § 924(c)
convictions and sentences under Khan. Even
assuming, in other words, that the jury convicted

20a
Jordan on the two § 924(c) counts because it found
that one use of one gun furthered both predicate
offenses, separate sentences would be permissible.
Jordan emphasizes that our decision in Khan
conflicts with the rule adopted by several other
circuits, prohibiting multiple § 924(c) sentences
arising from a single use of a firearm. See, e.g.,
United States v. Rentz, 777 F.3d 1105, 1115 (10th
Cir. 2015) (en banc); United States v. Cureton, 739
F.3d 1032, 1043 (7th Cir. 2014); United States v.
Phipps, 319 F.3d 177, 185 (5th Cir. 2003); United
States v. Finley, 245 F.3d 199, 208 (2d Cir. 2001);
United States v. Wilson, 160 F.3d 732, 749 (D.C. Cir.
1998). But as a panel of this circuit, we of course are
bound by our own precedent, and may not reconsider
Khan in this posture. See McMellon v. United States,
387 F.3d 329, 332–33 (4th Cir. 2004) (en banc). We
note, moreover, that this is not the kind of case that
has most troubled some courts, in which the evidence
presented at trial makes clear that multiple § 924(c)
convictions rest on a single use of a single gun. Here,
as the district court explained, the jury was
presented with ample evidence of different uses of
different guns, all in furtherance of the predicate
drug-trafficking offenses. See J.A. 484 (describing the
handgun recovered from Jordan’s grandmother’s
home, the two different handguns recovered from
Jordan’s residence, and yet another handgun found
in Jordan’s truck on the day he was arrested). And as
the district court noted, had Jordan nonetheless been
concerned that the jury might base its two § 924(c)
convictions on a single use of a gun, he could have
requested a jury instruction on the issue or a special

21a
verdict form that would have detailed the jury’s
reasoning, but did neither.
Accordingly, we find the district court did not err in
denying Jordan’s motion to sentence him on only one
of his two § 924(c) convictions.2
D.
Jordan’s final argument also concerns his § 924(c)
sentences. At the time Jordan was sentenced, it was
clear that § 924(c)’s sentencing regime mandated a
five-year mandatory minimum sentence for a first
conviction and a 25-year consecutive mandatory
minimum for a second, even when both convictions
arose from a single proceeding, see Deal v. United
States, 508 U.S. 129, 137 (1993), and Jordan was
sentenced accordingly, to a five-year prison term on
his first § 924(c) conviction and to 25 years on his
second. But while Jordan’s case was pending on
2

In light of our disposition, we need not rule on the
government’s argument that Jordan’s motion should have been
construed as a motion to vacate a conviction under Federal Rule
of Criminal Procedure 33, which would have meant both that it
raised an unpreserved issue connected to his conviction and
that it was untimely under Rule 33. We note, however, that the
district court construed Jordan’s filing as a sentencing motion,
requesting merger of the two convictions for sentencing
purposes, see J.A. 484 (concluding that Jordan “may be
sentenced on each of Counts Eight and Nine”), consistent with
our case law, see, e.g., United States v. Dire, 680 F.3d 446, 476
(4th Cir. 2012) (recognizing challenge to a district court’s failure
to merge multiple § 924(c) convictions as a sentencing
argument). And the government’s failure to raise a timeliness
objection before the district court ordinarily would preclude its
consideration here. See Eberhart v. United States, 546 U.S. 12,
19 (2005) (per curiam) (where the government fails to raise a
timeliness defense before a district court rules on a Rule 33
motion, the defense is forfeited).

22a
appeal, Congress enacted the First Step Act, which
amends § 924(c) so that the 25-year mandatory
minimum for a second or subsequent offense applies
only when a prior conviction under § 924(c) already
“has become final.” Pub. L. No. 115-391, § 403(a), 132
Stat. 5194, 5222. Under the First Step Act, in other
words, the 25-year mandatory minimum is reserved
for recidivist offenders, and no longer applies to
multiple § 924(c) convictions obtained in a single
prosecution. According to Jordan, the First Step Act
should apply to him on appeal, which would mean
that his second § 924(c) conviction would be subject
only to a five-year sentence, not to the 25-year
sentence he is serving.
This question is governed by the text of the First
Step Act, which provides that § 403(a)’s
“amendments” to § 924(c) “shall apply to any offense
that was committed before the date of enactment of
this Act, if a sentence for the offense has not been
imposed as of such date of enactment.” § 403(b), 132
Stat. at 5222 (emphasis added). 3 Jordan was
sentenced by the district court in October of 2017,
more than a year before the “date of enactment” of
the First Step Act in December of 2018. So the
question is whether Jordan’s sentence was “imposed”
for purposes of § 403(b) when the district court
entered his sentence – in which case the First Step
Act would not apply to him – or whether, as Jordan
argues, it will not be “imposed” until it becomes final
3

Section 403(b) reads in full: “Applicability to Pending
Cases—This section, and the amendments made by this section,
shall apply to any offense that was committed before the date of
enactment of this Act, if a sentence for the offense has not been
imposed as of such date of enactment.”

23a
after direct appeal – in which case he should get the
benefit of the First Step Act on this appeal. Like the
government, we think Jordan’s sentence was
“imposed” in the district court, rendering § 403(a)
inapplicable to his case.
Circuit court case law uniformly supports that
reading. Two other circuits have considered precisely
this question, and both have concluded that a
sentence is “imposed” under § 403(b) when it is
entered by a district court, so that § 403(a) does not
apply to cases pending on appeal on the date of
enactment. See United States v. Richardson, Nos. 172157/2183, --- F.3d ----, 2020 WL 413491, at *9–15
(6th Cir. Jan. 27, 2020); United States v. Hodge, 948
F.3d 160, 162–64 (3d Cir. 2020). 4 Two additional
circuits have considered identical retroactivity
language in a different section in the First Step Act,
and likewise held that a sentence is “‘imposed’ in the
district court, regardless of later appeals.” United
States v. Pierson, 925 F.3d 913, 927 (7th Cir. 2019);
see also Young v. United States, 943 F.3d 460, 462
(D.C. Cir. 2019).5 We agree.

4

The Eleventh Circuit reached the same conclusion in an
unpublished decision. See United States v. Garcia, No. 1713992, 2019 WL 7503482, at *1 (11th Cir. July 9, 2019).
5

Those cases involve § 401 of the First Step Act, which
provides that its sentence reductions “shall apply to any offense
that was committed before the date of enactment of this Act, if
a sentence has not been imposed as of such date of enactment.”
§ 401(c), 132 Stat. at 5221. Before ruling directly on the
provision before us now, § 403(b), both the Third and Sixth
Circuits also had concluded that § 401 likewise does not apply
to pre-enactment sentences pending on appeal when the First
Step Act became law. See United States v. Aviles, 938 F.3d 503,

24a
As those courts have explained, in common usage
in federal sentencing law, a sentence is “imposed”
when the district court announces it, not when
appeals are exhausted. See Richardson, 2020 WL
413491, at *11 (citing examples); Pierson, 925 F.3d at
927–28 (citing examples); see also, e.g., 18 U.S.C.
§ 3553(a) (listing “factors to be considered” by a
district court “in imposing a sentence” (emphasis
added)); Fed. R. Crim P. 32(a)(2) (“After imposing
sentence in a case which has gone to trial on a plea of
not guilty, the court shall advise the defendant of the
defendant’s right to appeal . . . .” (emphasis added)).
That consistent usage reflects the common
understanding that “[i]mposing sentences is the
business of the district courts, while courts of
appeals are tasked with reviewing them.” Aviles, 938
F.3d at 510 (internal quotation marks omitted).6 It
also is consistent, as the government points out, with
the fact that defendants ordinarily begin serving
their sentences as soon as they are handed down by a
district court, regardless of any appeal. See 18 U.S.C.
§ 3143(b).
510 (3rd Cir. 2019); United States v. Wiseman, 932 F.3d 411,
417 (6th Cir. 2019).
6

Given the time elapsed between Jordan’s district court
sentencing in October of 2017 and the enactment of the First
Step Act in December of 2018, we need not address today the
precise moment at which a district court sentence is “imposed”
for purposes of § 403(b) – whether imposition comes when a
sentence is announced or when judgment is entered. Cf.
Richardson, 2020 WL 413491, at *12. Nor, of course, do we have
any occasion to address how § 403(b) might apply to a
resentencing, rather than an initial sentencing like Jordan’s.
Cf. Hodge, 948 F.3d at 162 (construing § 403(b) in context of a
resentencing).

25a
Jordan’s contrary reading, on the other hand – that
a sentence is not “imposed” until it becomes final
after appeal – has no support in the text of § 403(b).
Section 403(b) requires, for application of the Act,
that a sentence be “imposed” after its enactment, not
that it be “finally imposed.” § 403(b), 132 Stat. at
5222. And the absence of a textual finality
requirement is underscored by the fact that Congress
did use finality as a marker in the immediately
preceding section, § 403(a), amending § 924(c) so that
the 25-year mandatory minimum would apply only to
offenses that occur after a prior § 924(c) conviction
“become[s] final.” § 403(a), 132 Stat. at 5221
(emphasis added); see Hodge, 948 F.3d at 163. Where
Congress wanted to make finality a benchmark, in
other words, it did so, and we have no warrant for
treating the omission of finality language in § 403(b)
as an oversight. See Russello v. United States, 464
U.S. 16, 23 (1983) (“Where Congress includes
particular language in one section of a statute but
omits it in another section of the same Act, it is
generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or
exclusion.” (alteration and internal quotation marks
omitted)).
Jordan points us to the Sixth Circuit’s 1997
decision in United States v. Clark, in which the court,
construing a different sentencing statute and
retroactivity provision, held that a sentence is not
“imposed” until after a case is decided on appeal. See
110 F.3d 15, 17 (6th Cir. 1997), superseded by
regulation
on
other
grounds,
U.S.S.G.
§ 1B1.10(b)(2)(A). That case does indeed lend support
to Jordan’s position here. But we can find no other

26a
circuit court decision applying that definition of
“imposed” even under the statute at issue in Clark,
let alone applying it in any other context. See
Pierson, 925 F.3d at 928. And the Sixth Circuit itself,
in joining the consensus that a sentence is “imposed”
for purposes of the First Step Act’s retroactivity
provisions when it is handed down by the district
court, declined to apply Clark to this different
statute, cautioning against giving that decision
“broad applicability.” Richardson, 2020 WL 413491,
at *14; see also Wiseman, 932 F.3d at 417 (holding
that sentence is “imposed” under § 401(c) of First
Step Act without applying Clark).
Jordan’s final argument focuses on the title of § 403
of the First Step Act: “Clarification of Section 924(c)
of Title 18, United States Code.” According to
Jordan, because § 403 is intended only to clarify
what always was the proper interpretation of
§ 924(c), it should apply to cases on direct review. See
Richardson, 2020 WL 413491, at *9 (describing
import of the distinction between a new law and a
“clarification” for retroactivity analysis). Moreover,
Jordan concludes, this feature is enough to
distinguish at least some of the cases deciding when
a sentence is “imposed” under the First Step Act
because they arise under § 401, which does not refer
to “clarification” in its title.
Jordan’s argument puts more weight on the word
“clarification” than it will bear. Section 403(a) does
not “clarify” something that once was ambiguous; it
changes § 924(c), providing by terms that it is
“amend[ing]” that section’s text. See § 403(a), 132
Stat. at 5221–22; Richardson, 2020 WL 413491, at
*11 (“That Congress altered the statutory language”

27a
suggests that “the amendment changed the law
rather than clarified what the law always meant.”).
Until the First Step Act, § 924(c) “unambiguous[ly]”
imposed a 25-year minimum sentence on a “second”
conviction obtained in the same proceeding as the
first, see Deal, 508 U.S. at 132; now it does not. That
is a change in meaning, not an elaboration of
existing law. Richardson, 2020 WL 413491, at *10.
And in any event, of course, “the title of a statute . . .
cannot limit the plain meaning of the text.” Bhd. of
R.R. Trainmen v. Baltimore & O.R. Co., 331 U.S.
519, 528–29 (1947). Section 403(b) expressly
addresses the circumstances under which § 403(a)
will apply to pre-enactment cases, and by its plain
terms, it excludes cases – like Jordan’s – in which a
defendant is sentenced before the Act’s effective date.
Any reduction in criminal penalties will pose
“difficult line-drawing” questions when it comes to
retroactivity. See Pierson, 925 F.3d at 927. Here,
Congress decided to extend the more lenient terms of
§ 403(a) of the First Step Act to some but not all preAct offenders, with “the date of sentencing in the
district court” drawing the line between those who
are covered and those who are not. Id. As a result,
Jordan may not benefit under the Act.
III.
For the reasons given above, the judgment of the
district court is affirmed.
AFFIRMED

28a
APPENDIX B
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT COURT OF
NORTH CAROLINA
CHARLOTTE DIVISION
_________
3:16-CR-00145-RJC
_________
USA
v.
ZAVIAN MUNIZE JORDAN
_________
October 20, 2017
_________
ORDER
_________
THIS MATTER is before the Court on the
defendant’s Motion to Merge/Vacate Counts 8 and 9,
(Doc. No. 189), and the government’s response, (Doc.
No. 191).
I.

BACKGROUND

The defendant was convicted by a jury of
conspiring to distribute or possess with intent to
distribute 100 grams or more of a mixture and
substance containing a detectable amount of heroin
and 500 grams or more of a mixture and substance
containing a detectable amount of cocaine, in
violation of 21 U.S.C. § 846 (Count One); possessing
with intent to distribute 100 grams or more of a

29a
mixture and substance containing a detectable
amount of heroin, in violation of 21 U.S.C. § 841(a)
(Count Five); possessing with intent to distribute a
mixture and substance containing a detectable
amount of cocaine, in violation of 21 U.S.C. § 841(a)
(Count Six); possessing a firearm in furtherance of
the drug trafficking crime alleged in Count One, in
violation of 18 U.S.C. § 924(c) (Count Eight);
possessing a firearm in furtherance of the drug
trafficking crime alleged in Count Six, in violation of
18 U.S.C. § 924(c) (Count Nine); and possessing a
firearm as a felon, in violation of 18 U.S.C.
§ 922(g)(1). (Doc. No. 130: Verdict).
The evidence adduced at trial, in light most
favorable to the government, tended to show that in
April 2016 federal and local law enforcement agents
were investigating the distribution of “China White”
heroin in this district. (Doc. No. 148: Tr. at 75). They
arrested Ricky Grant after he sold heroin to a
confidential source. (Id. at 78). Grant then agreed to
call his supplier, later identified as the defendant,
whom police began to surveil with the assistance of a
court-approved tracking device. (Id. at 81, 89).
On May 11, 2016, at approximately 10 a.m., they
established surveillance at the defendant’s residence
on Cullingford Lane. (Id. at 93). He traveled to a
parking garage in downtown Charlotte, then drove to
a house on Lyles Court around noon. (Id. at 94, 164165). From there, he went to a residence on
Ravencroft Drive and appeared to make an exchange
by taking a white plastic bag from the house and
returning with a smaller item from his pick-up truck.
(Id. at 140). At approximately 2 p.m., a police officer
stopped the truck. (Id. at 34-35). He found 7.73

30a
grams of cocaine and $2,000 cash in the defendant’s
pockets, a Taurus .45 caliber pistol underneath the
truck’s center console, and $26,000 cash in a white
bag. (Id. at 42-43, 46).
The defendant was arrested and waived his
Miranda rights. (Id. at 94, 142). He admitted going to
his deceased grandmother’s residence on Lyles
Court, where he packaged and prepared cocaine
before delivering it to the Ravencroft residence. (Id.
at 95). A search of the house on Lyles Court later in
the evening revealed approximately 275.54 grams of
heroin, kilogram-sized drug packaging materials,
drug purity testing kits, a respirator, digital scales,
and a Glock .40 caliber handgun. (Id. at 98-102).
When police searched the Ravencroft residence, they
found 753.81 grams of cocaine, along with marijuana
and methamphetamine, and a Springfield Armory
handgun for which a co-conspirator claimed
responsibility. (Id. at 174-176). At the defendant’s
Cullingford Lane residence, police found an FN 5.7 x
28 mm caliber pistol, a .223 caliber pistol with a high
capacity drum magazine, bulletproof vests, and
$24,400 in currency. (Id. at 271, 276-280, 283). Coconspirators detailed their history of purchasing
cocaine and heroin from the defendant dating back to
2013, including the $26,000 cocaine transaction at
the Ravencroft residence on May 11. (Id. at 192-200,
241-249). The defendant had shown one of them the
FN pistol when they were in a vehicle together. (Id.
at 253).
II.

DISCUSSION

Now that the defendant is pending sentencing, he
argues that his convictions for § 924(c) offenses in
Counts Eight and Nine must merge because the

31a
jury’s general verdict could have resulted from a
finding that the defendant used one gun on one
occasion. 1 (Doc. No. 189: Motion at 1-2). Thus, he
may not be punished twice for what may have been
one crime.2 (Id. at 8-9). Such a claim about multiple
§ 924(c) convictions “sounds in Double Jeopardy.”
United States v. Camps, 32 F.3d 102, 106 (4th Cir.
1994).
“A substantive crime and conspiracy to commit that
crime are ‘separate offenses’ for purposes of the
Double Jeopardy Clause, even if they are based on
the same underlying incidents.” United States v.
Yearwood, 518 F.3d 220, 227 (4th Cir. 2008). Thus,
the Fourth Circuit has recognized that conspiracy to
distribute cocaine base and distribution of cocaine
base are distinct offenses not based on the same
elements. Id. “‘As long as the underlying crimes are
not identical under the Blockburger analysis, then
consecutive § 924(c) sentences are permissible,’” and
a court need not count “uses” or “align the use of a
particular firearm with a particular predicate
offense.” United States v. Kahn, 461 F.3d 477, 494
(4th Cir. 2006) (quoting Camps, 32 F.3d at 106).
1

The defendant faults the indictment for failing to identify
the place, time, and gun at issue in each count, (Doc. No. 189:
Motion at 1), but did not challenge the alleged defect prior to
trial as required by Rule 12(b)(3)(B) of the Federal Rules of
Criminal Procedure. During the trial, he also did not request a
jury instruction on this issue or object to the verdict form. (Doc.
No. 178: Tr. at 9-10, 12-14).
2

The defendant’s reliance on cases from the Sixth, Seventh,
and Tenth Circuits, (Doc. No. 189: Motion at 4-6), is unavailing
because the Fourth Circuit has specifically rejected their
approach to multiple § 924(c) punishments. United States v.
Camps, 32 F.3d 102, 106 (4th Cir. 1994).

32a
Here, the jury found in Count Eight that the
defendant possessed a firearm in furtherance of the
predicate drug trafficking crime alleged in Count
One of conspiracy to distribute or possess with intent
to distribute 100 grams or more of a mixture and
substance containing a detectable amount of heroin
and 500 grams or more of a mixture and substance
containing a detectable amount of cocaine. (Doc. No.
130: Verdict at 1-2). As detailed above, in light most
favorable to the government, a Glock pistol was
found in proximity to over 275 grams of heroin and
drug packaging materials at the Lyles Court
residence where the defendant admitted processing
the more than 753 grams of cocaine he delivered to
the Ravencroft residence. Additionally, two
handguns, along with bullet proof vests and over
$24,000 currency, were found at the defendant’s
residence. The jury further found in Count Nine that
the defendant possessed a firearm in furtherance of
the predicate drug trafficking crime alleged in Count
Six of possession with intent to distribute cocaine.
(Id. at 2). Police found a Taurus handgun
underneath the center console of the defendant’s
truck when he possessed more than 7 grams of
cocaine in his pocket. Accordingly, the evidence
amply supports the jury’s verdict that the defendant
violated § 924(c) in relation to two predicate crimes;
therefore, the defendant may be sentenced on each of
Counts Eight and Nine.

33a
III.

CONCLUSION

IT IS, THEREFORE ORDERED that the
defendant’s Motion to Merge/Vacate Counts 8 and 9,
(Doc. No. 189), is DENIED.
Signed: October 20, 2017
/s/ Robert J. Conrad, Jr.
Robert J. Conrad, Jr.
United States District Court Judge

34a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ZAVIAN MUNIZE JORDAN
Defendant-Appellant.
_________
No. 17-4751
(3:16-cr-00145-RJC-2)
_________
FILED: March 31, 2020
_________
ORDER
_________
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Judge Harris,
Judge Richardson, and Judge Quattlebaum.
For the Court
/s/ Patricia S. Connor, Clerk

35a
APPENDIX D
_________
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
_______
UNITED STATES OF AMERICA,
v.
ZAVIAN MUNIZE JORDAN,
_______
JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed
On or After November 1, 1987)
_______
Case Number: DNCW316CR000145-002
USM Number: 19593-058
_______
A. Patrick Roberts, Marcia Shein
Defendant’s Attorney
_______
THE DEFENDANT:
☐ Pleaded guilty to count(s).
☐ Pleaded nolo contendere to count(s)_which was
accepted by the court.
☒ Was found guilty on count(s) 1sss, 5sss, 6sss, 8sss9sss, 10sss after a plea of not guilty.

36a
ACCORDINGLY, the court has adjudicated that the
defendant is guilty of the following offense(s):
Title and
Section
21:846,
841(a)(1) &
(b)(1)(B)

21:841(a)(1)
& (b)(1)(B)

21:841(a)(1)
& (b)(1)(C)

18:924(c)(1)
(A)

18:924(c)(1)
(A)

Nature of
Offense
Conspiracy to
Distribute and
to Possess with
Intent to
Distribute at
least 100 g of
Heroin and
500 g of Cocaine
Possession with
Intent to
Distribute at
least 100 g of
Heroin
Possession with
Intent to
Distribute
Cocaine
Possession of a
Firearm During
and in Relation
to a Drug
Trafficking
Crime
Possession of a
Firearm During
and in Relation
to a Drug
Trafficking
Crime

Date
Offense
Concluded Counts
1/12/2017 1sss

5/11/2016

5sss

5/11/2016

6sss

5/11/2016

8sss

5/11/2016

9sss

37a
18:922(g)(1)

Possession of a 5/11/2016
Firearm by a
Convicted Felon

10sss

The Defendant is sentenced as provided in pages 2
through 7 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984,
United States v. Booker, 125 S.Ct. 738 (2005), and 18
U.S.C. § 3553(a).
☐ The defendant has been found not guilty on
count(s).
☒ Count(s) 1, 1s, 1ss, 5, 5s, 5ss, 6, 6s, 6ss, 8-9, 8s-9s,
8ss-9ss, 10, 10s, 10ss (is)(are) dismissed on the
motion of the United States, (Doc. No. 212).
IT IS ORDERED that the Defendant shall notify
the United States Attorney for this district within 30
days of any change of name, residence, or mailing
address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay monetary penalties, the defendant
shall notify the court and United States attorney of
any material change in the defendant's economic
circumstances.
Date of Imposition of Sentence: 10/23/2017
Signed: November 9, 2017
/s/ Robert J. Conrad, Jr.
Robert J. Conrad, Jr.
United States District Judge

_

38a
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be
imprisoned for a term of SIXTY (60) MONTHS on
each of Counts 1, 5, 6 and 10 to be served
concurrently; PLUS, SIXTY (60) MONTHS on Count
8 to be served consecutively to all other counts;
PLUS, THREE HUNDRED (300) MONTHS on
Count 9 to be served consecutively to all other
counts for a total term of FOUR HUNDRED
TWENTY (420) MONTHS.
☒ The Court makes the following recommendations
to the Bureau of Prisons:
1. Placed in a facility capable of meeting his
medical needs as close to Charlotte, NC as
possible, consistent with the needs of BOP.
2. Participation in any available educational and
vocational opportunities.
3. Participation in the Federal Inmate Financial
Responsibility Program.
4. Participation in any available mental health
treatment programs as may be recommended
by a Mental Health Professional.
5. Participation in any available substance abuse
treatment program and if eligible, receive
benefits of 18:3621(e)(2).
6. Defendant shall support all dependents from
prison earnings.
☒ The Defendant is remanded to the custody of the
United States Marshal.
☐ The Defendant shall surrender to the United
States Marshal for this District:

39a
☐ As notified by the United States Marshal.
☐ At _ on _.
☐ The Defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:
☐ As notified by the United States Marshal.
☐ Before 2 p.m. on _.
☐ As notified by the Probation Office.
RETURN
I have executed this Judgment as follows:

Defendant
delivered
on
________
to
__________________________________________
at
_________________________________________, with a
certified copy of this Judgment.

_____________________________
United States Marshal
By:_____________________
Deputy Marshal

40a
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of FOUR (4)
YEARS, which consists of 4 years on each of Counts
1, 5, 8, and 9, and 3 years on each of Counts 6 and 10
to run concurrently.
☐ The condition for mandatory drug testing is
suspended based on the court's determination that
the defendant poses a low risk of future substance
abuse.
CONDITIONS OF SUPERVISION
The defendant shall comply with the mandatory
conditions that have been adopted by this court.
1. The defendant shall not commit another federal,
state, or local crime.
2. The defendant shall not unlawfully possess a
controlled substance.
3. The defendant shall refrain from any unlawful
use of a controlled substance. The defendant
shall submit to one drug test within 15 days of
release from imprisonment and at least two
periodic drug tests thereafter, as determined by
the court (unless omitted by the Court).
4. ☐ The defendant shall make restitution in
accordance with 18 U.S.C. §§ 3663 and 3663A or
any other statute authorizing a sentence of
restitution. (check if applicable)
5. The defendant shall cooperate in the collection
of DNA as directed by the probation officer
(unless omitted by the Court).

41a
The defendant shall comply with the standard
conditions that have been adopted by this court and
any additional conditions ordered.
1. The defendant shall report to the probation
office in the federal judicial district where
he/she is authorized to reside within 72 hours of
release from imprisonment, unless the
probation officer instructs the defendant to
report to a different probation office or within a
different time frame.
2. The defendant shall report to the probation
officer in a manner and frequency directed by
the court or probation officer.
3. The defendant shall not leave the federal
judicial district where he/she is authorized to
reside without first getting permission from the
Court or probation officer.
4. The defendant shall answer truthfully the
questions asked by the probation officer.
5. The defendant shall live at a place approved by
the probation officer. The probation officer shall
be notified in advance of any change in living
arrangements (such as location and the people
with whom the defendant lives).
6. The defendant shall allow the probation officer
to visit him/her at any time at his/her home or
elsewhere, and shall permit the probation
officer to take any items prohibited by the
conditions of his/her supervision that the
probation officer observes.
7. The defendant shall work full time (at least 30
hours per week) at lawful employment, unless
excused by the probation officer. The defendant

42a
shall notify the probation officer within 72 hours
of any change regarding employment.
8. The defendant shall not communicate or
interact with any persons engaged in criminal
activity, and shall not communicate or interact
with any person convicted of a felony unless
granted permission to do so by the probation
officer.
9. The defendant shall notify the probation officer
within 72 hours of being arrested or questioned
by a law enforcement officer.
10. The defendant shall not own, possess, or have
access to a firearm, ammunition, destructive
device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific
purpose of causing bodily injury or death to
another person such as nunchakus or tasers).
11. The defendant shall not act or make any
agreement with a law enforcement agency to act
as a confidential informant without the
permission of the Court.
12. If the probation officer determines that the
defendant poses a risk to another person
(including an organization), the probation officer
may require the defendant to notify the person
about the risk. The probation officer may
contact the person and make such notifications
or confirm that the defendant has notified the
person about the risk.
13. The defendant shall refrain from excessive use
of alcohol and shall not unlawfully purchase,
possess, use, distribute or administer any
narcotic or controlled substance or any

43a
psychoactive substances (including, but not
limited to, synthetic marijuana, bath salts) that
impair a person’s physical or mental
functioning, whether or not intended for human
consumption, or any paraphernalia related to
such substances, except as duly prescribed by a
licensed medical practitioner.
14. The defendant shall participate in a program of
testing for substance abuse if directed to do so
by the probation officer. The defendant shall
refrain from obstructing or attempting to
obstruct or tamper, in any fashion, with the
efficiency and accuracy of the testing. If
warranted, the defendant shall participate in a
substance abuse treatment program and follow
the rules and regulations of that program. The
probation officer will supervise the defendant’s
participation in the program (including, but not
limited to, provider, location, modality,
duration, intensity) (unless omitted by the
Court).
15. The defendant shall not go to, or remain at any
place where he/she knows controlled substances
are illegally sold, used, distributed, or
administered without first obtaining the
permission of the probation officer.
16. The defendant shall submit his/her person,
property, house, residence, vehicle, papers,
computers (as defined in 18 U.S.C. § 1030(e)(1)),
or other electronic communications or data
storage devices or media, or office, to a search
conducted by a United States Probation Officer
and such other law enforcement personnel as
the probation officer may deem advisable,

44a
without a warrant. The defendant shall warn
any other occupants that such premises may be
subject to searches pursuant to this condition.
17. The defendant shall pay any financial obligation
imposed by this judgment remaining unpaid as
of the commencement of the sentence of
probation or the term of supervised release in
accordance with the schedule of payments of
this judgment. The defendant shall notify the
court of any changes in economic circumstances
that might affect the ability to pay this financial
obligation.
18. The defendant shall provide access to any
financial information as requested by the
probation officer and shall authorize the release
of any financial information. The probation
office may share financial information with the
U.S. Attorney’s Office.
19. The defendant shall not seek any extension of
credit (including, but not limited to, credit card
account, bank loan, personal loan) unless
authorized to do so in advance by the probation
officer.
20. The defendant shall support all dependents
including any dependent child, or any person
the defendant has been court ordered to
support.
21. The defendant shall participate in transitional
support services (including cognitive behavioral
treatment programs) and follow the rules and
regulations of such program. The probation
officer
will
supervise
the
defendant’s
participation in the program (including, but not

45a
limited to, provider, location, modality,
duration, intensity). Such programs may include
group sessions led by a counselor or
participation in a program administered by the
probation officer.
22. The defendant shall follow the instructions of
the probation officer related to the conditions of
supervision.
ADDITIONAL CONDITIONS:
23. The defendant shall participate in a mental
health evaluation and treatment program and
follow the rules and regulations of that
program. The probation officer, in consultation
with the treatment provider, will supervise the
defendant’s participation in the program
(including, but not limited to provider, location,
modality, duration, and intensity). The
defendant shall take all mental health
medications as prescribed by a licensed health
care practitioner.

46a
CRIMINAL MONETARY PENALTIES
The defendant shall pay the following total criminal
monetary penalties in accordance with the Schedule
of Payments.
ASSESSMENT
$600.00

FINE
$0.00

RESTITUTION
$0.00

☐ The determination of restitution is deferred until.
An Amended Judgment in a Criminal Case (AO
245C) will be entered after such determination.
FINE
The defendant shall pay interest on any fine or
restitution of more than $2,500.00, unless the fine or
restitution is paid in full before the fifteenth day
after the date of judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on the Schedule
of Payments may be subject to penalties for default
and delinquency pursuant to 18 U.S.C. § 3612(g).
☒ The court has determined that the defendant does
not have the ability to pay interest and it is
ordered that:
☒ The interest requirement is waived.
☐ The interest requirement is modified as follows:
COURT APPOINTED COUNSEL FEES
☐ The defendant shall pay court appointed counsel
fees.
☐ The defendant shall pay $0.00 towards court
appointed fees.

47a
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties
shall be due as follows:
A

☐ Lump sum payment
immediately, balance due

of

$0.00

due

☐ Not later than
☐ In accordance ☐ (C), ☐ (D) below; or
B

☒ Payment to begin immediately (may be
combined with ☐ (C), ☒ (D) below); or

C

☐ Payment in equal Monthly (E.g. weekly,
monthly, quarterly) installments of $50.00 to
commence 60 (E.g. 30 or 60) days after the
date of this judgment; or

D

☒ Payment in equal Monthly (E.g. weekly,
monthly, quarterly) installments of $ 50.00 to
commence 60 (E.g. 30 or 60) days after
release from imprisonment to a term of
supervision. In the event the entire amount of
criminal monetary penalties imposed is not
paid prior to the commencement of
supervision, the U.S. Probation Officer shall
pursue collection of the amount due, and may
request the court to establish or modify a
payment schedule if appropriate 18 U.S.C.
§ 3572.

Special instructions regarding the payment of
criminal monetary penalties:
☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court costs:

48a
☒ The defendant shall forfeit the defendant’s
interest in the following property to the United
States as set forth in the Consent Order (Doc. No.
202) entered 10/11/2017:
Unless the court has expressly ordered otherwise in
the special instructions above, if this judgment
imposes a period of imprisonment payment of
criminal monetary penalties shall be due during the
period of imprisonment. All criminal monetary
penalty payments are to be made to the United
States District Court Clerk, 401 West Trade Street,
Room 210, Charlotte, NC 28202, except those
payments made through the Bureau of Prisons’
Inmate Financial Responsibility Program. All
criminal monetary penalty payments are to be made
as directed by the court.
Payments shall be applied in the following order: (1)
assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6)
community restitution, (7) penalties, and (8) costs,
including cost of prosecution and court costs.

49a
STATEMENT OF ACKNOWLEDGMENT
I understand that my term of supervision is for a
period of ________ months, commencing on ________.
Upon a finding of a violation of
supervised release, I understand that
(1) revoke supervision, (2) extend
supervision, and/or (3) modify the
supervision.

probation or
the court may
the term of
conditions of

I understand that revocation of probation and
supervised release is mandatory for possession of a
controlled substance, possession of a firearm and/or
refusal to comply with drug testing.
These conditions have been read to me. I fully
understand the conditions and have been provided a
copy of them.
(Signed) ______________________

Date: _______

Defendant
(Signed) ______________________
U.S. Probation Office/
Designated Witness

Date: _______

50a
APPENDIX E
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
NORTH CAROLINA
CHARLOTTE DIVISION
_________
UNITED STATES OF AMERICA
v.
(1) RICKY CARLOS GRANT, (2) ZAVIAN MUNIZE JORDAN,
(4) AUDWIN HAWATHA TAYLOR AKA “BIG WAT”
_________
Docket No. 3:16CR145-RJC
_________
THIRD SUPERSEDING BILL OF INDICTMENT
_________
Violations:

21 U.S.C. § 846
21 U.S.C. § 841(a)(1)
21 U.S.C. § 841(b)(1)(A)
21 U.S.C. § 841(b)(1)(B)
21 U.S.C. § 841(b)(1)(C)
18 U.S.C. § 924(c)
18 U.S.C. § 922(g)(1)
_________

FILED: JAN. 18, 2017
_________

51a
THE GRAND JURY CHARGES:
COUNT ONE
(Conspiracy to Possess with Intent to Distribute
Heroin and Cocaine)
From at least as early as in or about 2013 to on or
about January 12, 2017, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, the defendants,
(1) RICKY CARLOS GRANT,
(2) ZAVIAN MUNIZE JORDAN, and
(4) AUDWIN HAWATHA TAYLOR
AKA “BIG WAT”
did knowingly and intentionally conspire and agree
with each other and with other persons, known and
unknown to the Grand Jury, to distribute and to
possess with intent to distribute one or more
controlled substances, to include, a mixture and
substance containing a detectable amount of heroin,
a Schedule I controlled substance, and a mixture and
substance containing a detectable amount of cocaine,
a Schedule II controlled substance, in violation of
Title 21, United States Code, Sections 846 and
841(a)(1).
Quantity of Heroin Involved in the Conspiracy
It is further alleged that, with respect to the
conspiracy offense charged in Count One, one (1)
kilogram or more of a mixture and substance
containing a detectable amount of heroin, a Schedule
I controlled substance, is attributable to, and was

52a
reasonably foreseeable by defendants (1) RICKY
CARLOS GRANT, and (2) ZAVIAN MUNIZE
JORDAN, so Title 21, United States Code, Section
841(b)(1)(A) is applicable to them.
Quantity of Cocaine Involved in the
Conspiracy
It is further alleged that, with respect to the
conspiracy offense charged in Count One, five
hundred (500) grams or more of a mixture and
substance containing a detectable amount of cocaine,
a Schedule II controlled substance, is attributable to,
and was reasonably foreseeable by defendant (2)
ZAVIAN MUNIZE JORDAN, and (4) AUDWIN
HAWATHA TAYLOR, so Title 21, United States
Code, Section 841(b)(1)(B) is otherwise applicable to
them.
COUNT TWO
(Distribution and Possession with Intent to Distribute
Heroin)
On or about April 11, 2016, in Mecklenburg
County, within the Western District of North
Carolina, and elsewhere, defendant,
(1) RICKY CARLOS GRANT
knowingly and intentionally distributed and
possessed with intent to distribute a controlled
substance, that is, a mixture and substance
containing a detectable amount of heroin, a Schedule
I controlled substance, in violation of Title 21, United
States Code, Sections 841(a)(1) and 841(b)(1)(C).

53a
COUNT THREE
(Distribution and Possession with Intent to Distribute
Heroin)
On or about April 18, 2016, in Mecklenburg
County, within the Western District of North
Carolina, and elsewhere, defendant,
(1) RICKY CARLOS GRANT
knowingly and intentionally distributed and
possessed with intent to distribute a controlled
substance, that is, a mixture and substance,
containing a detectable amount of heroin, a Schedule
I controlled substance, in violation of Title 21, United
States Code, Sections 841(a)(1) and 841(b)(1)(C).
COUNT FOUR
(Possession with Intent to Distribute Heroin)
On or about April 21, 2016, in Mecklenburg
County, within the Western District of North
Carolina, and elsewhere, defendant,
(1) RICKY CARLOS GRANT
knowingly and intentionally possessed with intent to
distribute a controlled substance, that is, a mixture
and substance containing a detectable amount of
heroin, a Schedule I controlled substance, in
violation of Title 21, United States Code, Section
841(a)(1) and 841(b)(1)(C).

54a
COUNT FIVE
(Possession with Intent to Distribute Heroin)
On or about May 11, 2016, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, defendant,
(2) ZAVIAN MUNIZE JORDAN
knowingly and intentionally possessed with intent to
distribute a controlled substance, that is, a mixture
and substance containing a detectable amount of
heroin, a Schedule I controlled substance, in
violation of Title 21, United States Code, Section
841(a)(1).
Said offense involved one hundred (100) grams or
more of a mixture and substance containing a
detectable amount of heroin, a Schedule I controlled
substance.
All in violation of Title 21, United States Code,
Sections 841(a)(1) and 841(b)(1)(B).
COUNT SIX
(Distribution and Possession with Intent to Distribute
Cocaine)
On or about May 11, 2016, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, defendant,
(2) ZAVIAN MUNIZE JORDAN
knowingly and intentionally distributed and
possessed with intent to distribute a controlled
substance, that is, a mixture and substance
containing a detectable amount of cocaine, a
Schedule II controlled substance, in violation of Title

55a
21, United States Code, Section 841(a)(1) and
841(b)(1)(C).
COUNT SEVEN
(Possession of a Firearm in Furtherance of a Drug
Trafficking Crime)
On or about April 21, 2016, in Mecklenburg
County, within the Western District of North
Carolina, and elsewhere, defendant,
(1) RICKY CARLOS GRANT
did knowingly possess one or more firearms in
furtherance of a drug trafficking crime for which the
defendant may be prosecuted in a court of the United
States, that is, conspiracy to possess with intent to
distribute a controlled substance, a violation of Title
21, United States Code, Sections 841(a)(1) and 846,
as set forth in Count One of this Third Superseding
Indictment.
All in violation of Title 18, United States Code,
Section 924(c)(1)(A).
COUNT EIGHT
(Possession of a Firearm in Furtherance of a Drug
Trafficking Crime)
On or about May 11, 2016, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, defendant,
(2) ZAVIAN MUNIZE JORDAN
did knowingly possess one or more firearms in
furtherance of a drug trafficking crime for which the
defendant may be prosecuted in a court of the United

56a
States, that is, conspiracy to possess with intent to
distribute a controlled substance, a violation of Title
21, United States Code, Sections 841(a)(1) and 846,
as set forth in Count One of this Third Superseding
Indictment.
All in violation of Title 18, United States Code,
Section 924(c)(1)(A).
COUNT NINE
(Possession of a Firearm in Furtherance of a Drug
Trafficking Crime)
On or about May 11, 2016, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, defendant,
(2) ZAVIAN MUNIZE JORDAN
did knowingly possess one or more firearms in
furtherance of a drug trafficking crime for which the
defendant may be prosecuted in a court of the United
States, that is, possession with intent to distribute a
controlled substance, a violation of Title 21, United
States Code, Section 841(a)(1) and 841(b)(1)(C), as
set forth in Count Six of this Third Superseding
Indictment.
All in violation of Title 18, United States Code,
Section 924(c)(1)(A).
COUNT TEN
(Possession of a Firearm by a Convicted Felon)
On or about May 11, 2016, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, defendant,

57a
(2) ZAVIAN MUNIZE JORDAN
having been previously convicted of at least one
crime punishable by imprisonment for a term
exceeding one year, did knowingly and unlawfully
possess one or more firearms and ammunition, that
is,


a Taurus, Model PT 145 Millennium, .45
caliber semiautomatic pistol, and ammunition;
and



a Glock, Model 22, .40 caliber semiautomatic
pistol, and ammunition; and



a FNH, Model Five-Seven, 5.7x28 caliber
semiautomatic pistol, and ammunition,

in and affecting commerce, in violation of Title, 18
United States Code, Section 922(g)(1).
COUNT ELEVEN
(Possession with Intent to Distribute Cocaine)
On or about January 12, 2017, in Mecklenburg
County, within the Western District of North
Carolina, and elsewhere, defendant,
(4) AUDWIN HAWATHA TAYLOR
AKA “BIG WAT”
knowingly and intentionally possessed with intent to
distribute a controlled substance, that is, a mixture
and substance containing a detectable amount of
cocaine, a Schedule II controlled substance, in
violation of Title 21, United States Code, Section
841(a)(1) and 841(b)(1)(C).

58a
COUNT TWELVE
(Possession with Intent to Distribute Marijuana)
On or about January 12, 2017, in Mecklenburg
County, within the Western District of North
Carolina, and elsewhere, defendant,
(4) AUDWIN HAWATHA TAYLOR
AKA “BIG WAT”
knowingly and intentionally possessed with intent to
distribute a controlled substance, that is, a mixture
and substance containing a detectable amount of
marijuana, a Schedule I controlled substance, in
violation of Title 21, United States Code, Section
841(a)(1) and 841(b)(1)(C).
COUNT THIRTEEN
(Possession of Ammunition by a Convicted Felon)
On or about January 12, 2017, in Mecklenburg
County, within the Western District of North
Carolina, and elsewhere, defendant,
(4) AUDWIN HAWATHA TAYLOR
AKA “BIG WAT”
having been previously convicted of at least one
crime punishable by imprisonment for a term
exceeding one year, did knowingly and unlawfully
possess ammunition, that is, Hornday .380 caliber
ammunition, in and affecting commerce, in violation
of Title 18, United States Code, Section 922(g)(1).

59a
COUNT FOURTEEN
(Possession of Firearm by a Convicted Felon)
On or about May 11, 2016, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, defendant,
(4) AUDWIN HAWATHA TAYLOR
AKA “BIG WAT”
having been previously convicted of at least one
crime punishable by imprisonment for a term
exceeding one year, did knowingly and unlawfully
possess a firearm, that is, a Springfield Armory USA,
Model XDS, .45 caliber semiautomatic pistol, in and
affecting commerce, in violation of Title 18, United
States Code, Section 922(g)(1).
COUNT FIFTEEN
(Possession of a Firearm in Furtherance of a Drug
Trafficking Crime)
On or about May 11, 2016, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, defendant,
(4) AUDWIN HAWATHA TAYLOR
AKA “BIG WAT”
did knowingly possess one or more firearms in
furtherance of a drug trafficking crime for which the
defendant may be prosecuted in a court of the United
States, that is, conspiracy to possess with intent to
distribute, a controlled substance, a violation of ‘title
21, United States Code, Sections 841(a)(1) and 846,
as set forth in Count One of this Third Superseding
Indictment.

60a
All in violation of Title 18, United States Code,
Section 924(c)(1)(A).
NOTICE OF FORFEITURE AND FINDING OF
PROBABLE CAUSE
Notice is hereby given of 21 U.S.C. § 853, 18 U.S.C.
§§ 924 and 982, and 28 U.S.C. § 2461(c). Under
Section 2461(c), criminal forfeiture is applicable to
any offenses for which forfeiture is authorized by any
other statute, including but not limited to 18 U.S.C.
§ 981 and all specified unlawful activities listed or
referenced in 18 U.S.C. § 1956(c)(7), which are
incorporated as to proceeds by Section 981(a)(1)(C).
The following property is subject to forfeiture in
accordance with Section 853, 924, 982, and/or
2461(c):
a. All property which constitutes or is derived

from proceeds of the violations set forth in this
bill of indictment;
b. All property used or intended to be used in any

manner or part to commit or facilitate such
violations;
c. All property involved in such violations or

traceable to
violations;

property

involved

in

such

d. All firearms or ammunition involved or used

in such violations; and
e. If, as set forth in 21 U.S.C. § 853(p), any

property described in (a), (b), (c) and (d) cannot
be located upon the exercise of due diligence,
has been transferred or sold to, or deposited
with, a third party, has been placed beyond

61a
the jurisdiction of the court, has been
substantially diminished in value, or has been
commingled with other property which cannot
be divided without difficulty, all other
property of the defendant(s) to the extent of
the value of the property described in (a), (b),
(c), and (d).
The Grand Jury finds probable cause to believe
that the following property is subject to forfeiture on
one or more of the grounds stated above:


approximately $6,980 in United States
currency seized on or about April 21, 2016;



a S.W.D. Cobray Mac 11, 9mm pistol, and
ammunition;



a Hi Point model CD, 9mm pistol, and
ammunition;



a Ivar Johnson model Trails man 66s, .38
caliber revolver, and ammunition;



a Taurus, Model PT 145 Millennium, .45
caliber semiautomatic pistol;



a Springfield Armory USA, Model XDS, .45
caliber semiautomatic pistol, and ammunition;



a FNH Model Five-Seven, 5.7x28 caliber
semiautomatic pistol, and ammunition;



two .223 caliber semi-automatic pistols with
no markings, serial number, or manufacturer
information, and one 100-round, loaded .223
caliber drum magazine, and one 30-round,
loaded .223 caliber magazine;



a Glock Model 22, .40 caliber semiautomatic
pistol, and ammunition;

62a


approximately $28,220 in United States
currency seized on or about May 11, 2016;



approximately $24,200 in United States
currency seized on or about May 11, 2016;



approximately $7,030 in United States
currency seized on or about May 12, 2016;



a Mossberg
shotgun; and



Hornday .380 caliber ammunition.

500c,

pistol

grip,

20-gauge

A TRUE BILL:
[REDACTED]
FOREPERSON
JILL WESTMORELAND ROSE
UNITED STATES ATTORNEY
/s/ Sanjeev Bhasker_______________________
SANJEEV BHASKER
ASSISTANT UNITED STATES ATTORNEY

63a
U.S. DISTRICT COURT
_________
NEW CRIMINAL CASE COVER SHEET
_________
Docket Number: 3:16CR145-RJC
_________
UNITED STATES OF AMERICA
v.
RICKY CARLOS GRANT, ET AL.
_________
CASE SEALED: ☐ YES

☒ NO

If case is to be sealed, a Motion to Seal and proposed
Order must be attached.)
CASE NAME:
vs

US

COUNTY OF OFFENSE:
RELATED CASE
INFORMATION:
Magistrate Judge Case Number:
Search Warrant Case
Number:
Miscellaneous Case
Number:
Rule 20b:

Ricky
Carlos
Grant, et al,
Mecklenburg

64a
SERVICE OF PROCESS:

1
–
Warrant

U.S.C. CITATIONS (Mark
offense carrying greatest
weight):

☐ Petty

Arrest

☐ Misdemeanor
☒ Felony

Title 21 & 18 Section(s) 846, 841(a)(1) and 924(c),
922(g)(1)
JUVENILE:

☐ Yes

☒ No

ASSISTANT U.S.
ATTORNEY:

Sanjeev Bhasker

VICTIM/WITNESS
COORDINATORS:

Rutledge, Shirley

INTERPRETER NEEDED:
LIST LANGUAGE AND/OR
DIALECT:
REMARKS AND SPECIAL
INSTRUCTIONS:

65a
APPENDIX F
_________
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT COURT OF
NORTH CAROLINA
CHARLOTTE DIVISION
_________
UNITED STATES,
v.
ZAVIAN MUNIZE JORDAN
_________
Docket No. 3:16-cr-145-2
_________
TRANSCRIPT OF TESTIMONY
BEFORE THE HONORABLE
ROBERT J. CONRAD, JR.
UNITED STATES DISTRICT COURT JUDGE
_________
APRIL 4, 2017
_________
APPEARANCES:
On Behalf of the Government:
SANJEEV BHASKER, ESQ.,
MATTHEW THOMAS WARREN, ESQ.,
Assistant United States Attorneys
227 West Trade Street, Suite 1700
Charlotte, North Carolina 28202

66a
On Behalf of the Defendant:
A. PATRICK ROBERTS, ESQ.,
BENJAMIN JAMES LANKFORD, ESQ.,
Roberts Law Group, PLLC
203 W. Millbrook Road, Suite 200
Raleigh, North Carolina 27609
LAURA ANDERSEN, RMR
Official Court Reporter
United States District Court
Charlotte, North Carolina
_________
PROCEEDINGS
***
[Testimony of Detective Christopher Newman,
pp. 41:24-42:22]
***
Q. All right. Sir, you mentioned the cameras. Did
you know the cameras were on?
A. Yes, I did. I know the cameras -- that’s the
reason I lay it up there for the camera and
everything. The camera’s an evidence collection tool.
So I lay it there for it to collect what’s going on that
day.
Q.

You placed this evidence where now?

A.

On the hood of my patrol vehicle.

Q. Do you remember how much currency you
recovered from his pocket?
A.

Approximately $2,000.

67a
Q. All right. Moving on now to what has been
marked and admitted as Government’s Exhibit 6C,
continuing the traffic stop.
What’s happening here, sir?
A. I’ve initiated the search of the vehicle, and I
found a gun under the center console of the center
bench seat, underneath in the truck, and I recovered
a Taurus .45 caliber handgun.
Q. Where, again,
specifically in the car?

was

that

gun

located

A. Underneath the center -- it’s a bench seat in a
truck. It was underneath, like, a center console area
that popped open.
***
[Testimony of Miller Bridges, pp. 78:4-25, 81:9-21,
87:14-91:12, 93:6-94:12]
***
Q. And on the third incident, which was April
21st, 2016, correct?
A.

That is correct.

Q.

What happened that day?

A. On the third incident, April 21st, what we did
is establish surveillance on Mr. Grant. We learned a
lot about him through electronic surveillance and
other matters. We established surveillance on him
prior to the confidential source contacting him and
say, “Hey, I need heroin today.” So we already had
eyes on him. We had the confidential source at our
instruction place a phone call to him and they
procured a deal to meet at Bojangles off of -- over in

68a
east Charlotte off of -- I think it’s West Mallard
Creek Church Road.
About the time they were supposed to meet,
surveillance watched Ricky Grant as he drove
toward that location. He got really close to that
location at about the time he was supposed to meet
our informant. He stopped at a gas station right next
door, and because we were really confident he had
the heroin on him he was going to supply our
informant, we went ahead and approached Mr.
Grant.
Q.

Was he arrested?

A.

He was arrested.
***

Q. All right. Going back to the 21st of April 2016,
what is the next step in the OCDETF investigation
for law enforcement?
A. Definitely we’re going after who’s supplying
the heroin to Mr. Grant.
Q. And he agreed -- strike that. He -- was there a
phone call made by Mr. Grant? Was a phone call
made by Mr. Grant, sir?
A.

Yes, at my instruction.

Q.

And what did you instruct him?

A. I instructed Mr. Grant to place a call to his
supplier.
Q.

Why did you instruct him that?

A. To preserve the integrity of the investigation,
keep moving up the food chain to the source of
supply.
***

69a
Q. I am showing you now what has been marked
for identification as Government’s Exhibit 3B.
All right. Mr. Bridges, based on your investigation,
whose voices do you hear in the phone call?
A.

Mr. Grant and Mr. Jordan.

Q. All right. After this phone call took place on
April 24th, what’s the next step in your
investigation?
A. The next step in the investigation, the
following day on the 25th, law enforcement applied
and obtained a federal search warrant for the
location of that phone that Mr. Grant contacted.
Q. Let me show you what has been marked and
admitted as Government’s Exhibit 4. What are we
looking at here, sir?
A. That is a United States District Court search
and seizure warrant.
Q. Here
Carolina?

in the Western District

A.

That’s correct.

Q.

What phone number is this for?

A.

980-406-1700.

of North

Q. Was that the same phone number Ricky Grant
called with your guidance?
A.

It was.

Q.

And this search warrant was executed when?

A.

That day at 4:30 p.m. approximately.

Q. Is that the day after the phone call was made,
correct?
A.

That’s correct.

70a
Q.

What day would that be?

A. The 25th -- the phone call was made on the
24th of April, 25th is when we obtained and executed
the warrant to locate the phone.
Q. Are you familiar with the term “geo tracking”
of phones?
A.

I am.

Q. Explain to the jury what a geo tracking search
warrant is and does?
A. Basically it orders the phone company to give
us information regarding the location of that phone.
Every phone company is different, some are very,
very accurate, some are just general area, and some
are, you know, mediocre accuracy.
Basically, it narrows where that phone is down to a
specific area, specific neighborhood, and in some
cases a, you know, specific block, maybe even a
house.
Q. And practically speaking, based on your
expertise, what role do drug phone search warrant
pings or geo tracking location provide for law
enforcement?
A. It definitely helps us locate the user of that
phone that is involved in drug trafficking that
otherwise we may not know anything about or where
they live.
Q.

Is that also known as GPS for the phone?

A.

That’s correct. It does operate off of the phone.

Q. All right. I want to show you now what’s been
marked for identification purposes as Government’s
Exhibit 5. Do you recognize this, sir?

71a
A. It’s also a Western District federal tracking
warrant.
Q.

This is a search warrant, correct?

A.

It’s a search warrant, yes. That's correct.

Q.

What is the search warrant for?

A. It’s a tracking warrant. It gives us, basically,
45 days to put a tracker on a vehicle. In this case it
was a 2004 Dodge Ram, and it gives a North
Carolina tag number of Young William Paul 8755.
Q.

What color was it?

A.

It was white in color.

Q. What role -- first of all, how did you get that
information regarding the vehicle and what did you
do?
A. Basically, what we did is we coupled the phone
information we received along with cooperating
defendants’ statements -MR. ROBERTS: Objection.
A.

-- and we actually --

THE COURT:
I’ll sustain the objection to
“cooperating defendant statements” and ask the jury
to disregard that.
Q. Go
ahead,
sir.
Without
statements, what else did you do?
THE COURT:
Q.

mentioning

You can correct the question.

Yes, sir.

After you were able to identify the GPS position of
the phone, did you do any surveillance of Mr.
Jordan?

72a
A. We did. We did surveillance in the area that
the phone was located.
Q.

Was that on April 25, 2016?

A.

It was.

Q. Were you able to determine the type of vehicle
he drove?
A.

We were.

Q. All right. And that resulted in this search
warrant?
A. Actually, I’m sorry. Let me correct. That was
on the 26th that we conducted surveillance, April
26th.
Q. All right. Let me ask you this: You use the
term “we.” There was many agents involved in this
investigation, correct?
A. That’s correct. I mean law enforcement in
general when I say “we.”
Q. All right. Once the search -- let me rephrase
the question.
Drawing your attention to the bottom of
Government’s Exhibit 5 of the tracking warrant,
when was this tracking warrant for his vehicle, Mr.
Jordan’s vehicle, obtained?
A.

April 26th.

Q.

Of what year?

A.

2016.
***

Q. All right, sir, I will show you now what’s been
marked for identification purposes and admitted as
Government’s Exhibit 7. Do you recognize this, sir?

73a
A.

I do.

Q.

What are we looking at here?

A. That’s the map with several addresses noted
on it of the Charlotte area.
Q. Briefly are these -- what significance do these
addresses have?
A. They’re all addresses that were significant
events occurred on the day of May 11, 2016.
Q. I want to take you now to May 11, 2016. What
were you doing that morning, sir?
A. That morning around 10:00 a.m. we began we
established surveillance on Mr. Jordan at his
residence at 8435 Cullingford Lane.
Q. And did you make what did you specifically do
that day in the morning?
A. I was a member of the surveillance team just
like everyone else. You know, it takes multiple
people to follow someone, and I was part of that
team.
Q. All right. I’m going to ask you to adjust your
microphone again.
Did you see anything of note prior to Mr. Jordan’s
traffic stop earlier that morning?
A. I did. I personally observed his vehicle parked
at a residence that was later identified as 501 Lyles
Court. I observed him exit the vehicle and walk in
the direction of the front door.
Q. Do you remember what time of day that
happened?
A. Real close to lunchtime. It’s going to be a
ballpark figure, 12:00.

74a
***
[Testimony of James Billings, pp. 137:7-141:22,
156:7-20]
***
Q. And did you yourself surveil Mr. Jordan at any
particular residence that day?
A. I did.
Q. What was the address of that residence?
A. 2909 Ravencroft Avenue.
Q. Mr. Billings, I’m going to show you what’s been
marked and admitted as Government’s Exhibit 11.
Do you recognize what’s in this photo?
A. I do.
Q. What is it?
A. This is the residence located at 2909 Ravencroft.
Q. Special Agent Billings, did you surveil Mr.
Jordan at this residence -A. I did.
Q. -- on May 11, 2016?
A. I did.
Q. Please describe what you saw upon your arrival
in surveillance at this residence.
A. What was happening was, we were following Mr.
Jordan in the white Dodge Ram 1500. I was the
closest vehicle to him. When the vehicle turned down
Ravencroft Avenue, this street, initially I wasn’t
going to go right down the street. I wanted to give
him a little bit of space. I didn’t want him to see me.

75a
And as I was getting ready to pass by Ravencroft, I
come back around, the person that was monitoring
the tracker on the vehicle said, “Hey, he stopped at a
house on Ravencroft and he’s been at this house
before.” Meaning, we’ve monitored that vehicle at
this house multiple times before.
When I heard that come over the radio I went
ahead and turned down Ravencroft. I arrived -- I
drove passed this residence, probably, approximately
30 seconds after he had arrived at that residence,
and I saw his vehicle parked in the driveway.
Q. Approximately what time do you believe you
arrived at the residence?
A. I would have to refer to the report to know what
time it was in the day, but it was earlier in the day
at some point.
Q. When you arrived at the residence, what did you
see?
A. I saw the white Dodge Ram 1500 parked in the
driveway, which you can see to the left here a little
bit. And then I saw up on -- I guess I call it a porch,
where it’s got the sun shade three quarters of the
way down, I saw the legs of – and the feet of two
individuals, but I couldn’t tell who they were. But I
saw two different individuals up on that porch
section of the residence.
Q. With respect to the vehicle you saw, can you
mark on the image in front of you where you saw the
white Dodge Ram?
A.

Sure. Approximately, right there.

Q.

Thank you for marking that for the record.

76a
Just to be clear, you say you saw two individuals on
the porch at that residence; is that correct?
A.

That’s correct.

Q. Can you circle on this image where you saw
two individuals at the time you arrived?
A.

(Indicating.)

Q.

Thank you. What happened next?

A. I went in and I turned down a street that T’s
into Ravencroft that actually T’s in real close to this
residence. And I got out my binoculars and I
established surveillance on the residence.
Q.

And what did you see happen next?

A. The individuals that were on the porch had
gone inside, and then I stayed there for total -probably between 20 and 30 minutes. But eventually
I saw Mr. Zavian Jordan come out of the residence
and go to his truck.
Q. When he came out of the residence was Mr.
Jordan carrying anything in his hands?
A.

He was.

Q.

What was he carrying in his hands?

A. He was carrying a white bag, it appeared to be
a white plastic bag.
Q.

And what did he do with that plastic bag?

A. He went to the passenger side of the Dodge
Ram 1500 and he leaned into the vehicle, and
apparently he left it in the vehicle. Because when he
came out of the vehicle he didn’t have that same
white bag with him. It was -- I couldn’t tell what was
in it, but I could see it was something about the size
of a shoebox. It was something sizeable.

77a
Q.

A different package?

A. No, that’s what he put in the car. When he
came back out of the vehicle he had a smaller -- a
much smaller package that he was holding close to
him, but it wasn’t the same white bag because that
white bag couldn’t be held like that. Then I watched
him walk back up into the residence.
Q. So he took one package out of the residence at
2909 Ravencroft, and brought a different package
from the vehicle, the Dodge Ram, and brought it to
2909 Ravencroft; is that correct?
A.

That’s correct.

Q. How long -- did Mr. Jordan enter the house
with this second package?
A.

He did.

Q - How long did Mr. Jordan spend in the house
with the second package?
A. He was just in there a matter of a couple
minutes. He wasn’t in there long at all.
Q.

Then what happened next?

A. Then I saw him exit the residence with
nothing in his hands. He went to the driver’s side
door of the vehicle, got in the vehicle and departed
from the area.
Q. Based on your perception of Mr. Jordan’s
movements with respect to this residence, what do
you think had occurred?
MR. ROBERTS: Objection.
THE COURT: Overruled.
THE WITNESS: Based on my observance, my
training and experience, I believe that a drug

78a
transaction had occurred with him taking one
package in coming -- I’m sorry -- with him bringing
one package out and then taking a different package
back in. I wasn’t sure if money had come out and
drugs went back in or vice versa, but I believe that
there was a transaction of some sort -- some type of
drug transaction that had occurred.
Q. Thank you. Was Mr.
arrested on May 11, 2016?
A.

Jordan

ultimately

He was.
***

Q. And in the course of your conversation with Mr.
Jordan, you referenced the Lyles residence as being
his grandmother’s house?
A. Well, I didn’t reference it. He referenced it. He
indicated that was his grandmother’s house who
passed away, who was no longer living. That’s why
he had the key to the house.
Q. Do you have any idea how many grandkids are
part of the family?
A. No, I have no idea how many grandkids.
Q. Any idea if other grandkids or other members of
the family have keys to that home?
A. Other than Mr. Jordan, no, I don’t know how
many kids have keys to that house.
***
[Testimony of Alan Plotz, pp. 272:1-279:8]
***
Q. What time did you first arrive to 8435
Cullingford Lane in Charlotte, North Carolina?

79a
A. I arrived at the residence at approximately
5:00 p.m. and engaged Mrs. Evans, who was outside,
and was actually looking for consent for the home -- a
consent search for the home -- which she denied. And
at that point we just established kind of an outer
perimeter of the home to prevent any evidence
coming in or out of the home that someone may be -Q.

Why do you do that, sir?

A. Just kind of standard protocol, again, to
prevent evidence leaving the home that may be there
that we can preserve.
Q. All right. Did there come a point in time where
you and groups of law enforcement entered the
residence?
A. I did. At approximately 8:25 I had received a
phone call, I believe from Jim Billings who testified
earlier, that stated he had in fact obtained a federal
search warrant for the home. At that time I told Ms.
Evans that the search warrant had been signed and
we were going to go ahead and execute the search
warrant at her home.
Q.

All right. And what happens next?

A. Again, around 8:25 we make entry into the
home. It’s myself, five other CMPD officers, Officer
Conger, Newman, Howard, Big Nosco, and Little,
along with TFOs McGuirt and Paul Foushee.
So we make entry into the home where I kind of
secured a couch for Mrs. Evans to sit on. We sat her,
and I believe the mother of Zavian Jordan, on the
couch. And then we did a security sweep of the home
and then initiated a search of the home.
Q.

What is a security sweep for the jury?

80a
A. Yeah, at that point we’re just looking for
anyone that may be armed or just in the home, in
general.
Q. Just going to ask you to put the microphone a
little bit further from your face, if you don’t mind.
What did you say specifically to Ms. Evans?
A. Yes. So after we searched the home and Mrs.
Evans was on the couch, I asked her specifically if
there were any weapons and currency -- and perhaps
I should back up a little bit.
I received a call from TFO Bridges earlier, as we’re
standing outside, that he was made aware during an
interview with Mr. Jordan that the residence was
likely to contain United States currency and
weapons as well. So I asked her that before we
started a search of the home.
Q.

What did Ms. Evans say to you?

A. She stated she was not aware of any currency
at the home, but she was aware of two weapons in a
safe that she had in her master bedroom.
Q. Who -- based on your investigation, did you
learn who else resided or lived in the master
bedroom?
A.

Mr. Jordan did.

Q. All right. Your understanding is they were
boyfriend/girlfriend.
A.

That was my understanding.

Q.

Did you ask her about the weapons?

A.

I did. She --

THE COURT: No. The question is, did you ask her.
You said, yes?

81a
THE WITNESS: I’m sorry?
THE COURT: You said, yes, to the question, “Did
you ask her about the weapons?”
THE WITNESS: I did.
THE COURT: All right. Ask your next question.
Q. What did you learn
communication with her?

based

on

your

A. I learned that there were two weapons that
she was aware of in the home in a safe, and she told
me that she was the sole, like, owner of the keys to
have access to the safe.
Q.

Did she speak of either weapon in the safe?

A.

I’m sorry?

Q. Did she speak about either weapon in the
safe?
A.

No, not at that time.

Q. I’m going to show you now what’s been
marked for identification and admitted now as
Government’s Exhibit 18A. There’s a screen in front
of you there, sir. First of all, who took these photos?
A.

A combination of TFOs McGuirt and Foushee.

Q. All right. Are you familiar with Government’s
Exhibit 18A?
A.

I am.

Q.

What are we looking at here?

A. That’s a safe. As you walk into the master
bedroom there was a master bed, kind of, directly in
front of you, down to the right side of the bed on the
back wall was that safe and it was tethered to the
post of the master bed.

82a
Q. Agent Plotz, looking at a zoomed in
perspective of Government’s Exhibit 18A, first of all,
can you tell what color the safe is?
A.

I believe it was black.

Q. All right. And is there some type of -something in the front or a keyboard in the front?
A.

Appears to be a numerical key entry.

Q. You were able to gain entry into that safe,
correct?
A.

Yes, with the key.

Q. I’m going to show you now what has been
admitted as Government’s Exhibit 18B. Do you
recognize this here?
A. I recognize that as the contents of the safe. In
the lower right hand corner is a .380 pistol, which
Mrs. Evans stated was hers. She provided me
paperwork that satisfied my belief as to whether or
not the firearm belonged to her.
Q. And if you could circle the other firearm. If you
touch the screen – there’s a touch screen there. What
firearm is that what did you learn?
A. That’s an FNH 57. I questioned her once the
safe was opened I asked her, I said, “What’s the story
with the other weapon?” I’m not super familiar with
that type of weapon at the time. She said she had
just acquired this weapon and was going to the
courthouse the following day to obtain a permit to
lawfully own this weapon.
Q.

Did she provide you any such paperwork?

A.

She did not.

83a
Q. Subsequently you would learn through law
enforcement investigation that weapon was in fact
stolen, correct?
A.

I did.

Q. All right. Showing you now what’s been
marked for identification and admitted as
Government’s Exhibit 18C, as in Charlie, what do we
see here?
A.

That’s a bulletproof vest.

Q. If you could explain to the jury, where was the
safe located?
A. The safe was located upstairs in the master
bedroom, kind of the first floor.
Q. And the firearms were within the safe,
correct?
A. Those two firearms that we previously viewed
were in the safe.
Q. Where are we looking at now in Government’s
Exhibit 18C?
A. So as you go downstairs, there’s a downstairs,
almost like a basement style part of the home, which
led out to a garage. This item was contained in the
garage. When you entered the garage from the home,
on the left hand side there was a cabinet that
contained this item.
Q.

What is this again?

A.

This is a bulletproof vest.

Q. Do you know who is holding this bulletproof
vest here?

84a
A. That was one of the officers, it’s either Officer
Howard or Officer Oprysko. Unfortunately, I’m not
sure.
Q. All right. Showing you now what’s been
identified and admitted as Government’s Exhibit
18D. What do you recognize here, sir?
A. I recognize 223 style high capacity drum
magazine.
Q.

And where was this located?

A. This was located in the same location as the
bulletproof vest.
Q.

Is there ammunition in the magazine, sir?

A.

Yes.

Q. All right. I’m going to show you also what’s
been identified and admitted as Government’s
Exhibit 18E. Do you recognize this, sir?
A.

I do.

Q.

All right. What are we looking at here?

A.

Can I circle --

Q.

Yes.

A. In the lower right hand corner there is a stack
or a stack of United States currency.
Q. Okay. Had you asked Ms. Evans and the
house occupants about this currency?
A. I did ask Ms. Evans, again, at 8:25, if she was
aware of any United States currency in the home or
weapons. She was aware of the two weapons upstairs
in the safe, but she denied knowledge of any United
States currency.
And later Jim Billings came in and asked her and
stated what the warrant was for, she again denied

85a
any knowledge of any United States currency in the
home.
Q. All right. So, if you can explain this
perspective, where is -- where is Government’s
Exhibit 18A – I’m sorry, 18E located?
A. So I’ll draw again on the screen if you guys can
see. This is the doorway as you enter into the garage
from the downstairs. So as soon as you walk through
that doorway to the left hand side was that cabinet
and it’s kind of about head level.
Q. So it’s fair to say, head level is an elevated
cabinet, correct?
A.

That’s correct.

Q.

Did you locate this currency?

A.

I did not, TFO Paul Foushee did.

Q.

You were eventually able to see it?

A. He directed my attention, it was very shortly
after we located the bulletproof vests and that
magazine.
Q. Do you know how much currency, as we sit
today, was located and found in that cabinet?
A.

I do, it was $24,200.

Q.

That would be United States currency?

A.

That’s correct.
***

86a
APPENDIX G
_________
UNITED STATES DISTICT COURT
FOR THE WESTERN DISTRICT OF
NORTH CAROLINA
CHARLOTTE DIVISION
_________
UNITED STATES OF AMERICA,
v.
ZAVIAN MUNIZE JORDAN,
Defendant.
_________
Docket No. 3:16-cr-145-2
_________
TRANSCRIPT OF JURY INSTRUCTIONS AND
VERDICT
BEFORE THE HONORABLE
ROBERT J. CONRAD, JR.
UNITED STATES DISTRICT COURT JUDGE
_________
APRIL 5, 2017
_________
APPEARANCES:
On Behalf of the Government:
SANJEEV BHASKER, ESQ.,
MATTHEW THOMAS WARREN, ESQ.,
Assistant United States Attorneys

87a
227 West Trade Street, Suite 1700
Charlotte, North Carolina 28202
On Behalf of the Defendant:
A. PATRICK ROBERTS, ESQ.,
BENJAMIN JAMES LANKFORD, ESQ.,
Roberts Law Group, PLLC
203 W. Millbrook Road, Suite 200
Raleigh, North Carolina 27609
LAURA ANDERSEN, RMR
Official Court Reporter
United States District Court
Charlotte, North Carolina
_________
[Transcript of Jury Instructions and Verdict,
pp. 2:13-24, 18:14-19:8, 26:9-28:16]
_________
PROCEEDINGS
***
THE COURT: Members of the jury, now that you
have heard the evidence and soon you will hear the
arguments of the attorneys, I will instruct you as to
the general principles of law that apply to this case.
After the attorneys have made their closing
arguments, I will discuss the specific offenses
charged in the indictment, give you the elements of
those offenses and follow with directions to guide
your deliberations.
As I told you in the preliminary instructions, it is
your duty and your responsibility in this trial to find

88a
the facts. You may find those facts only from the
evidence which has been presented during the trial.
***
Possession, as that term is used in this case, may
be of two kinds: Actual possession and constructive
possession. A person who knowingly has direct
physical control over a thing, at a given time, is then
in actual possession of it. A person who, although not
in actual possession, knowingly has both the power
and the intention, at a given time, to exercise
dominion or control over a thing, either directly or
through another person or persons, is then in
constructive possession of it.
Possession may be sole or joint. If one person alone
has actual or constructive possession of a thing,
possession is sole. If two or more persons share
actual or constructive possession of a thing,
possession is joint.
The defendant’s mere presence in, or proximity to,
an area where an item is found does not necessarily
establish proof that the defendant possessed the
item.
You may find that the element of possession, as
that term is used in these instructions, is present if
you find beyond a reasonable doubt that the
defendant had actual or constructive possession,
either alone or jointly with others.
***
Count Eight reads:
On or about May 11, 2016, within Mecklenburg
County, within the Western District of North
Carolina, and elsewhere, defendant, Zavian Munize

89a
Jordan did knowingly possess one or more firearms
in furtherance of a drug trafficking crime for which
the defendant may be prosecuted in a court of the
United States, that is, conspiracy to possess with
intent to distribute a controlled substance, a
violation of Title 21, United States Code, Sections
841(a)(1) and 846, as set forth in Count One of this
indictment.
All in violation of Title 18, United States Code,
Section 924(c)(1)(A).
Title 18, United States Code, Section 924(c) reads
in pertinent part:
Any person who, in furtherance of a drug
trafficking crime for which the person may be
prosecuted in a court of the United States, possesses
a firearm commits an offense.
For you to find the defendant guilty of this crime,
you must be convinced that the government has
proven each of the following beyond a reasonable
doubt: that on or about the date alleged, within the
Western District of North Carolina:
1. That the defendant committed a drug
trafficking crime, that is, conspiracy to distribute or
possess with intent to distribute a controlled
substance; and
2. That the defendant knowingly possessed a
firearm in furtherance of such crime.
A “firearm” means any weapon which will or is
designed to or may readily be converted to expel a
projectile by the action of an explosion, includes any
handgun, shotgun, or rifle.

90a
I have previously defined the term “possess” with
regard to Count One, and you are to apply that
definition here.
To prove the defendant possessed a firearm “in
furtherance” of a drug trafficking crime, the
government must prove that the defendant possessed
a firearm that furthers, advances, or helps forward
the crime charged.
I have previously defined the term “knowingly” and
you are to apply that definition to this count.
Count Nine reads:
On or about May 11, 2016, in Mecklenburg County,
within the Western District of North Carolina, and
elsewhere, defendant, Zavian Munize Jordan did
knowingly possess one or more firearms in
furtherance of a drug trafficking crime for which the
defendant may be prosecuted in a court of the United
States, that is, possession with intent to distribute a
controlled substance, a violation of Title 21, United
States Code, Section 841(a)(1) and 841(b)(1)(C), as
set forth in Count Six of this indictment.
All in violation of Title 18, United States Code,
Section 924(c)(1)(A).
Again, I previously read that statute to you and
instructed you on its elements and definitions with
regard to Count Eight, the previous count. You are to
apply those instructions here to Count Nine, except
that the underlying offense is possession with intent
to distribute a controlled substance alleged in Count
Six. And you are to consider each count, and the
evidence pertaining to it, separately.
***

91a
APPENDIX H
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
NORTH CAROLINA
CHARLOTTE DIVISION
_________
UNITED STATES OF AMERICA,
v.
ZAVIAN MUNIZE JORDAN,
_________
3:16-cr-145
_________
April 5, 2017
_________
VERDICT FORM
_________
1. As to Count One, charging the defendant with
a violation of 21 U.S.C. § 846, we, the jury,
unanimously find the defendant:
Guilty:



Not Guilty:

1(a). If guilty, was one (1) kilogram or more a
mixture and substance containing a detectable
amount of heroin a reasonably foreseeable
consequence of the conspiracy to the defendant?
Yes:

No:



1(b). If answer to 1(a) is “no,” was one hundred
(100) grams or more a mixture and substance

92a
containing a detectable amount of heroin a
reasonably foreseeable consequence of the conspiracy
to the defendant?
Yes:



No:

1(c). If answer to 1 is “guilty,” was five hundred
(500) grams or more a mixture and substance
containing a detectable amount of cocaine a
reasonably foreseeable consequence of the conspiracy
to the defendant?
Yes:



No:

2.

As to Count Five, charging the defendant with
a
violation
of
21
U.S.C.
§
841(a)
regarding heroin, we, the jury, unanimously find the
defendant:
Guilty:



Not Guilty:

2(a). If guilty, was one hundred (100) grams or
more a mixture and substance containing a
detectable amount of her n involved in the offense?
Yes:



No:

3. As to Count Six, charging the defendant with
a violation of 21 U.S.C. § 841(a) regarding cocaine,
we, the jury, unanimously find the defendant:
Guilty:



Not Guilty:

4. As to Count Eight, charging the defendant
with a violation of 18 U.S.C. § 924(c) in relation to
Count One, we, the jury, unanimously find the
defendant:
Guilty:



Not Guilty:

93a
5. As to Count Nine, charging the defendant with
a violation of 18 U.S.C. § 924(c), in relation to Count
Six, we, the jury) unanimously find the defendant:
Guilty:



Not Guilty:

6. As to Count Ten, charging the defendant with
a violation of 18 U.S.C. § 922(g)(1), we, the jury,
unanimously find the defendant:
Guilty:



Not Guilty:
Signed:

[REDACTED]
FOREPERSON

Dated:

4/5/17___

94a
APPENDIX I
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
NORTH CAROLINA
CHARLOTTE DIVISION
_________
UNITED STATES OF AMERICA
Plaintiff,
v.
(2) ZAVIAN MUNIZE JORDAN
Defendant.
_________
Docket No. 3:16-cr-00145-RJC-DCK-2
_________
DEFENDANT’S MOTION TO MERGE/VACATE
COUNTS 8 AND 9
_________
August 4, 2017
_________
In the third superseding indictment Mr. Jordan
was charged in Counts 8 and 9 with two counts of
violating 18 U.S.C. § 924(c)(1)(A). Mr. Jordan was
convicted on both counts. These counts are alleged to
have taken place on the same day, but rely on
different underlying offenses. 1 Further, there is
1

Mr. Jordan states that even though the underlying
offenses, Count I and VI, charge different offenses (Count 1
charges a conspiracy to possess with intent to distribute heroin

95a
nothing in the indictment identifying a different
place, time or gun. Therefore, these counts must be
merged and one of them must be vacated.
Contrary to the Government’s argument in its
response to Mr. Jordan’s objections to the PSR, Mr.
Jordan is not arguing an error in the indictment
itself. Rather, given the plain language in the
indictment, Petitioner was put on notice that he was
defending against carrying a firearm on the same
day in relation to two interrelated crimes. Nothing in
the jury verdict indicates that it found that
Petitioner possessed different guns at different
times. The Government’s biased interpretation of the
evidence and what the jury must have found cannot
overcome the fact that these counts are alleged to
have taken place on the same day and it is entirely
possible the jury only found Mr. Jordan possessed
one of the recovered guns on a single occasion as not
a single gun was recovered from his actual person
and others were involved in the conspiracy. Further,
there is nothing in the indictment identifying a
different place, time or gun. Therefore, these counts
must be merged and one of them must be vacated.
Again, the uncertainty is regarding whether the
jury found the possession of more than one firearm
on more than one occasion. Therefore, the Fourth
Circuit’s decision in United States v. Khan, 461 F.3d
and cocaine and Count 6 charges possession with intent to
distribute cocaine), this does not mean that the jury verdict
could not have relied on the same gun at the exact same time.
Cf. United States v. Walker, 796 F.3d 43, 46 (4th Cir. 1986). In
fact, even under the Government’s one-sided interpretation of
the facts, both counts relied on, at least in part, the sale of
cocaine to Audwin Taylor.

96a
477, 494 (4th Cir. 2006), relied upon by the
Government in its Response to Mr. Jordan’s
objections, is inapposite because that case was
addressing a situation where it was clear that the
jury found the use of separate guns and separate
offenses, but just did not line each gun with each
offense. Here, we cannot determine if the jury found
possession of a different gun at a different time for
the second conviction. This is something a special
verdict form might have fixed, but the jury returned
a general verdict without any specificity and,
therefore, we are left to guess whether the jury found
the possession of more than one firearm on more
than one occasion. Cf. United States v. Hare, 820
F.3d 93, 105-06 (4th Cir. 2016) (“Section 924(c)
prohibits the possession of a firearm in furtherance
of a crime of violence or a drug trafficking crime. As
the district court explained to the jury, Appellants
could be found liable if they possessed a gun either in
furtherance of the crime of violence charged in Count
1 or in furtherance of the drug trafficking crime
charged in Count 2. The special verdict form clearly
shows that the jury found Appellants guilty of
possessing a firearm in furtherance of both crimes.
Thus, even assuming that a Hobbs Act robbery is not
a crime of violence, Appellants’ verdicts may be
sustained because the jury found Appellants guilty of
possessing, and conspiring to possess, a firearm in
furtherance of the drug trafficking crime of which
they were convicted in Count 2.”); United States v.
Crandle, 274 Fed. Appx. 324, 328 (4th Cir. 2008)
(“The special verdict form directly addressed the
jury’s difficulty in assessing the defendants’ guilt as
to Count One, as the form clearly delineated the two
grounds for a finding of guilt on the conspiracy

97a
charge and instructed the jury to indicate the basis
for their determination.”).
The Fourth Circuit’s decision in United States v.
Rhynes, 206 F.3d 349 (4th Cir.1999), rev’d on other
grounds 218 F.3d 310 (4th Cir.2000) (en banc) is
instructive on what this Court should do because of
the lack of clarity with the jury verdict. In Rhynes,
the jury failed to specify which drug it found was
involved in the conspiracy - heroin, cocaine, cocaine
base or marijuana. The sentence imposed in Rhynes
was above the statutory maximum for a marijuana
conspiracy. In finding that this was in error, the
Rhynes Court explained that “[t]he Government did
not request a special verdict form, as was its
obligation.” Therefore, because it was “impossible to
determine on which statutory object or objects—sale
of heroin, cocaine, cocaine base, or marijuana—the
conspiracy conviction was based” the district court
was prohibited from “imposing a sentence in excess
of the statutory maximum for the least-punished
object on which the conspiracy conviction could have
been based.” Id. at 238.
Here, the Government failed to seek a specific
verdict and, therefore, as in Rhynes, this Court must
assume that the jury found only the use of one gun
on one occasion. Therefore, as is discussed below,
these counts must merge.
The Seventh Circuit’s decision in United States v.
Cureton, 739 F.3d 1032 (7th Cir. 2014), is instructive
in this matter. In that case, the Seventh Circuit
addressed “whether a defendant may receive
multiple 18 U.S.C. § 924(c) convictions for a single
firearm use when the predicate offenses are also
committed simultaneously and without any

98a
distinction in conduct.” Id. at 1040. In analyzing this
question as a statutory interpretation question, the
Seventh Circuit examined the unit of prosecution the minimum activity that will constitute a crime.
After examining Supreme Court precedent and
precedent from other circuits, the Seventh Circuit
ultimately held “[b]ecause Cureton only used a
firearm once, in the simultaneous commission of two
predicate offenses, we agree with him that he may
only stand convicted of one violation of § 924(c).” It
reached this decision reasoning that “there was only
one choice to use a gun in committing a crime[]”
should still apply. Id. at 1043-44.
Similarly, in United States v. Rentz, 777 F.3d 1105
(10th Cir. 2015), the Tenth Circuit analyzed, as a
statutory interpretation question and rule of lenity
question, “whether, as a matter of statutory
interpretation, § 924(c)(1)(A) authorizes multiple
charges when everyone admits there’s only a single
use, carry, or possession.” Id. at 1108. In ultimately
agreeing with the Seventh Circuit, the Tenth Circuit
reasoned “if a second conviction doesn’t require a
second blameworthy choice to use, carry, or possess a
firearm in aid of a predicate act, the logic behind the
leap in punishment becomes less apparent.” Id. at
1111. The Tenth Circuit felt that its decision was
supported by the other Circuits and explained that
“Most other circuits to have come this way before us
have reached the same destination we do. …. Neither
does the one circuit that most apparently seems to
have gone a different way (the Eighth) cause us to
doubt our path. In fact, it’s not even clear that court
would disagree with anything we’ve said. In
Sandstrom, the Eighth Circuit did allow multiple

99a
charges premised on a single gun use to proceed
under § 924(c)(1)(A). But it did so only after relying
on our own panel decisions rejecting Blockburgertype double jeopardy challenges to multiple
§ 924(c)(1)(A) convictions. As we’ve seen, those cases
do not directly answer the question what, as a
matter of statutory interpretation, the government
must prove for each successive charge under a single
statute.” Id. at 1114. Those cases also do not answer
what the jury must find for each successive charge
under a single statute.
Likewise, in United States v. Vichitvongsa, 819
F.3d 260 (6th Cir. 2016), in agreeing with the Tenth
Circuit in Rentz, the Sixth Circuit explained that
“[i]n order for the government to convict a defendant
of more than one § 924(c) charge, the defendant must
use, carry, or possess a firearm—even if it is the
same one—more than once.” Id. at 268-69. The Sixth
Circuit also held “[w]hether a criminal episode
contains more than one unique and independent use,
carry, or possession depends at least in part on
whether the defendant made more than one choice to
use, carry, or possess a firearm.” Id. at 270.2
2

Mr. Jordan recognized in his objections that this Circuit
has held, in conflict with every other Circuit except the Eighth,
based on double jeopardy grounds, that there can be a
conviction for each firearm even if there is only one underlying
crime because “[i]f multiple uses of ... weapons ... could not be
punished with multiple consecutive sentences, there would be
little deterrence against armed drug dealers using those
weapons repeatedly during a lengthy drug conspiracy.” United
States v. Diaz, 592 F.3d 467, 471-75 (3d Cir. 2010). What the
Government overlooks in arguing that this applies in the
instant matter, however, is that the indictment here did not
identify different firearms or separate use to support Counts 8

100a
Therefore, because Counts 8 and 9 must merge; one
of them must be vacated. The proper procedure when
there is a duplicative conviction, or when two counts
in an indictment allege only one offense, is to
merge/vacate the two counts. For example, in United
States v. Shorter, 328 F.3d 167, 173 (4th Cir. 2003),
two counts in the indictment alleged a single offense
and so the judgment recognized he was found guilty
of both counts but that those counts merged for
sentencing purposes. In finding that this was proper,
the Fourth Circuit explained that “there is no
duplicative conviction to be vacated because the
district court merged the duplicative counts into a
single conviction. ... the judgment reflects the
imposition of only a single special assessment for a
§ 922(g) offense.”
Likewise, in United States v. Norman, 628 Fed.
Appx. 876 (D.C. Cir. 2015) the Circuit Court for the
District of Columbia addressed a case where “[a]t the
and 9. Therefore, the reasoning in the Fourth Circuit
supporting separate convictions for each firearm is inapposite
because it is based on the presumption that Congress intended
to prevent the repeated use of weapons. See e.g., United States
v. Camps, 32 F.3d 102 (4th Cir. 1994) (“there would be little
deterrence against armed drug dealers using those weapons
repeatedly during a lengthy drug conspiracy.”). Therefore, this
precedent is inapposite here where there is no distinguishing
between the gun or number of uses. Further, as an aside
because Mr. Jordan was charged with different underlying
offenses, Mr. Jordan believes that these cases were wrongly
decided under the language and intent of the statute and the
holding of the majority of other Circuits - that “a defendant who
uses multiple firearms in relation to a single drug-trafficking
crime may be charged with only one violation of
§ 924(c)(1)[]” - is the correct statement of the law. United States
v. Diaz, 592 F.3d 467, 471-75 (3d Cir. 2010).

101a
sentencing hearing, the district court imposed
concurrent 252-month prison terms on each count
and special assessments of $100 per count under 18
U.S.C. § 3013. Norman objected to the two sentences
on the ground that ‘the ammunition and gun count
merge.’” The Court ultimately agreed and
“instructed] the district court to dismiss one of the
two convictions at the government’s election and
resentence on the remaining conviction.” See also
United States v. Medina-Mendoza, 528 Fed. Appx.
658, 661 (7th Cir. 2013) (“In the district court
Medina-Mendoza did not challenge his two
convictions as multiplicitous. But it was plain error
for the district court to sentence him more than
once—even to concurrent sentences—because the
§ 922(g) counts are based on his single possession of
the same gun, and the second conviction is presumed
to have collateral consequences”); United States v.
Nirenberg, 242 F.2d 632, 634 (2d Cir. 1957)
(“Although the appellant does not raise this point, it
is clear that the sentence on Count 2 must be
vacated since the conviction on Count 2 became
merged in the conviction of the offense in a higher
degree as charged in Count 3.”).
As is discussed herein, the jury made no finding of
Mr. Jordan’s possession use or carrying of two
separate firearms or one firearm on two separate
occasions. The two vague charges in the indictment
refer to the same day without any other information
regarding separate guns or times. Under these facts,
there can only be one conviction.
Accordingly, Petitioner respectfully requests that
this Court GRANT his Motion to Merge/Vacate
Counts 8 and 9.

102a
This 4th day of August, 2017.
Respectfully submitted,
/s/Marcia G. Shein
Marcia G. Shein
Counsel for Defendant
Georgia Bar No. 639820
Federal Bar No. 53667
2392 North Decatur Road
Decatur, Georgia 30033
(404) 633-3797
(404) 633-7980 (Fax)
Marcia@MSheinlaw.com

103a
APPENDIX J
_________
UNITED STATES DISTICT COURT
FOR THE WESTERN DISTRICT OF
NORTH CAROLINA
CHARLOTTE DIVISION
_________
UNITED STATES OF AMERICA,
v.
ZAVIAN MUNIZE JORDAN,
Defendant.
_________
Docket No. 3:16-cr-145-2
_________
TRANSCRIPT OF SENTENCING HEARING
BEFORE THE HONORABLE
ROBERT J. CONRAD, JR.
UNITED STATES DISTRICT COURT JUDGE
_________
OCTOBER 23, 2017
_________
APPEARANCES:
On Behalf of the Government:
SANJEEV BHASKER, ESQ.,
Assistant United States Attorney
227 West Trade Street, Suite 1700
Charlotte, North Carolina 28202

104a
On Behalf of the Defendant:
MARCIA G. SHEIN, ESQ.,
Law office of Shein & Brandenburg
292 North Decatur Road
Decatur, Georgia 30033
A. PATRICK ROBERTS, ESQ.,
Roberts Law Group, PLLC
203 W. Millbrook Road, Suite 200
Raleigh, North Carolina 27609
LAURA ANDERSEN, RMR
Official Court Reporter
United States District Court
Charlotte, North Carolina
_________
[Transcript of Sentencing Hearing, pp. 2:8-4:13]
***
PROCEEDINGS
***
THE COURT: We’re here in the matter of United
States v Zavian Munize Jordan for sentencing. Mr.
Jordan was found guilty by a jury on April 10th of
this year.
And Mr. Jordan, if you would please stand, I have a
couple of questions to ask you about the presentence
report.
I’ve received and reviewed the presentence report.
Have you had a chance to read the presentence
report?
THE DEFENDANT: Not yet. Do you have a copy?

105a
THE COURT: Well, let me ask you if you’ve been
able to go over that presentence report with your
attorneys?
THE DEFENDANT: Yes, briefly.
THE COURT: All right. And do you believe you
understand it?
THE DEFENDANT: I have a couple issues with it.
THE COURT: Well, we’re going to go through a
sentencing hearing, and I’m going to ask your
attorneys to raise any objections to the presentence
report that they have and we will talk about that and
I will make rulings on that. I represent to you that
I’ll give you an opportunity to talk to the Court
before any sentence is imposed.
You’re nodding your head that you understand all
of that.
THE DEFENDANT: Yeah.
THE COURT: All right. Well, you may have a seat
at this time. And Ms. Shein or Mr. Roberts, I’ll be
glad to hear from you on any objections to the
presentence report.
MS. SHEIN: Thank you, Your Honor. I’m going to
go ahead at this point and make a presentation to
the objections. And if Mr. Roberts has any objections,
we’ve been working together, he may do so.
THE COURT: All right.
MS. SHEIN: There is one objection that is now
mute as a result of the Court’s order on Friday.
THE COURT: Yeah, on the consecutive MS. SHEIN: Correct.

106a
THE COURT: -- 924(c). It just seems to me -- I
understand your objection, and if you were in other
circuits it might be better received but it seems to me
that the Fourth Circuit has spoken. They may speak
again -MS. SHEIN: Well, we preserved it for this reason -THE COURT: All right.
MS. SHEIN: -- that it is a conflict. As you know,
many times in conflict cases people change their
mind or the Supreme Court might entertain
something in the future. And so I felt it was
necessary for us to put that together for this
jurisdiction even though we have that problem with
the Fourth Circuit.
But the first objection as a result of the decision of
course is no longer valid so we withdraw that
objection.
THE COURT: All right. Well -MS. SHEIN: Other than to the premise of it.
THE COURT: Right. You’re going to pursue it at -MS. SHEIN: I should say moot, not withdrawn.
THE COURT: -- some other forum.
MS. SHEIN: Yes. It is not withdrawn, it’s moot.
Thank you.
***

